<html>
<title> - NASA AND EDUCATION</title>
<body><pre>[Senate Hearing 107-1116]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1116

                           NASA AND EDUCATION

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
91-230                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held June 19, 2002.......................................     1
Statement of Senator Brownback...................................     3
Statement of Senator Wyden.......................................     1

                               Witnesses

Broere, Christopher and Dwyer, Brendan, Students, Ocean Avenue 
  School.........................................................    25
O'Keefe, Hon. Sean, Administrator, NASA..........................     4
    Prepared statement...........................................     7
    Response to written questions submitted by Hon. George Allen.    15
Steffen, Peggy, Albert Einstein Distinguished Educator, Ottumwa 
  High School....................................................    20
Voss, Colonel James S., Astronaut, NASA..........................    15
    Prepared statement...........................................    17
Whitson, Dr. Peggy, Astronaut, NASA..............................    19
Whittaker, Marci, Junior Nuclear Engineering Student, Oregon 
  State University...............................................    22
    Prepared statement...........................................    24

 
                           NASA AND EDUCATION

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee on Science, Technology, and 
Space will come to order. Since last fall, the Subcommittee has 
spent considerable time discussing ways to mobilize a new 
generation of science and technology experts. The National 
Aeronautics and Space Administration has an important role to 
play in this endeavor through the promotion of scientific 
research, exploration, and education programs.
    Mobilizing a new generation of science and technology 
experts is a growing challenge in the face of a shrinking 
number of Americans with degrees in science and engineering, 
but even more appalling is the lack of women in the 
professional ranks of these key fields. Of the 2 million 
scientists and engineers working in the United States, 90 
percent are men. According to the Bureau of Labor Statistics, 
93 percent of the country's aerospace engineers are men. The 
most recent statistics about college graduates reveal that out 
of 205 thousand graduates with degrees in math and the hard 
sciences, only 70,000 are women. So not only are fewer women 
studying math and the hard sciences, but even fewer are going 
on to careers in these fields. A positive note is the women who 
do pursue these careers on average earn more than women in 
other professional fields. The Bureau of Labor Statistics 
reports that women working as engineers, computer scientists, 
pharmacists, and lawyers have the highest median earnings of 
women in any professional occupation.
    Now, some might argue that women do not pursue careers in 
the sciences because they are just uninterested, and that there 
are biological reasons why women do not go into math and 
science. The evidence, however, disputes those arguments. 
Studies indicate that girls show as much or more interest in 
math and science as boys in elementary school, but something 
happens around junior high school that seems to turn the girls 
away.
    Some of this may be due to peer pressure. Kids may think 
math and science are just not cool. Some of it is due to 
teaching methods that may dissuade girls from math and science 
studies. Whatever the reasons, it is time for action that 
fosters, not frustrates, girls' interest in math and science 
and encourages them to pursue these important careers. The bias 
against women pursuing careers in math and the hard sciences 
can be found elsewhere in our society. The space program alone 
cannot root out this problem, but NASA, with the launch of its 
major new education initiative, can use this program as a 
trampoline that can land more women in these key academic 
disciplines from which they can find rewarding careers in a 
host of professions.
    If NASA will use its new initiative to generate a 
significant increase in the number of women pursuing these 
careers, the benefits will be felt across our society, but 
today I want to issue a challenge to NASA. I would like the 
agency to help triple the number of women graduating from 
college with degrees in science, math, and engineering by the 
year 2012. Over the same decade, I want to see the overall 
number of graduates in math and the hard sciences triple as 
well.
    This country needs to grow the next generation of 
innovators, engineers, astronauts and astrophysicists, and to 
energize more women to pursue these careers. This panel 
convenes today to look at NASA's efforts to do so. By educating 
and mobilizing the next generation for achievements in science 
and technology, NASA is working to deepen its roots in research 
and reach for new stratospheres in science. Whether pursued by 
men or women, science and math education are critically 
important. Simply put, technological advantages are also 
military and homeland security advantages. If America does not 
invest in science education, these advantages are going to be 
lost.
    But science education and innovation are not the only 
components of national security. Scientific innovation has 
driven this country's economic competitiveness. Better 
engineering discoveries and the development of the Internet all 
contributed to the exponential growth of the economy in the 
last decade.
    Today's witnesses are going to illustrate NASA's 
educational scope from the first grade to Ph.D. programs around 
the Nation. They are living examples of how NASA is developing 
educational material, teaching teachers, and funding education. 
These witnesses are both inspired and inspiring. Today's 
testimony will range a bit outside the realm of what one 
usually hears in these congressional hearing rooms. The 
Subcommittee is going to have an unusual opportunity to hear 
taped testimony from an astronaut working at the International 
Space Station, as well as to witness a live experiment by two 
promising young scientists.
    We are very pleased to have the Administrator, Sean 
O'Keefe, here. He has made education a priority for NASA. He 
has done so not only because education is a worthwhile pursuit 
in itself, but also because he understands that education is 
vital to the future of his agency. One third of NASA's 
workforce is going to be eligible for retirement in the next 3 
to 5 years. Today's undergraduate and graduate students, and 
even elementary students, can rest assured that their work and 
study is going to be sought after.
    So the goals for today's hearing are threefold. First, to 
help pursue initiatives that encourage women to enter 
scientific and mathematical fields. Second, to examine NASA's 
current educational efforts, and third, to determine how they 
can best be expanded to benefit science and technology in 
general, and women in these critical disciplines specifically. 
This, in my view, is in the interest of the agency. It is in 
our interest to develop the talent and skills we are going to 
need to drive our economy, and obviously these skills will play 
a key role in national security. This was something that former 
House Speaker Newt Gingrich testified on when he recently 
appeared before this panel.
    So we are excited today to welcome Administrator O'Keefe as 
well as Astronaut James Voss. Astronaut Peggy Whitson will 
testify via downlink from the International Space Station. An 
earth-bound witness panel will include Peggy Steffen, the 
Albert Einstein Distinguished Educator Fellow from Ottumwa High 
School in Ottumwa, Iowa, Marci Whittaker, a nuclear engineer 
major at Oregon State University, and Brendan Dwyer and 
Christopher Broere, students from Ocean Avenue School in 
Northport, New York. We are very pleased to have all of our 
witnesses here, but first I want to recognize my colleague from 
Kansas, who has had a long interest in science policy on a 
variety of issues. I have enjoyed very much working with him, 
and I welcome his statement.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman. I appreciate 
that, and welcome to our panel, welcome to the people that are 
present here. It is going to be an exciting hearing, and it is 
an interesting discussion and an important issue that we are 
taking up. I want to thank particularly Administrator O'Keefe 
for his focus and his efforts that he has put forward to date.
    Since its inception, NASA has had many different goals, 
from getting off the launch pad, to landing a man on the moon, 
to most recently establishing a permanent presence in space 
aboard the International Space Station. Behind each of these 
significant achievements are thousands of scientists, 
mathematicians, and engineers who labored long and hard to see 
their projects succeed in what is now a source of national and 
international accomplishment.
    However, in light of the past successes, NASA is not immune 
to difficulties, as we know, and one of the difficulties facing 
us today is getting students interested in education fields in 
science and math. I find it disheartening that America is faced 
with this type of a problem. I hope that working together we 
can strive with success to get students involved in these 
fields.
    You know, capturing the imagination and spirit of grade 
school students is the first step to ensuring the longevity of 
the technical field. Capturing that vision, providing students 
with the knowledge and ideas that keep NASA alive is imperative 
to the future success of the agency. It is certainly my hope 
that students will find a goal, embrace it, and grow from it. 
To do this we must give them something to get excited about, 
which is one of the key roles that NASA can play, and to me, 
that is what is one of the very exciting things about NASA as 
an agency. It is one of those places that is always looking 
forward. Where is it that we are penetrated to? Where is it we 
are trying to go to? NASA can provide that vision so that the 
people can thrive, and they can survive and grow into that.
    In my home State of Kansas, there is a wonderful 
organization of educators who spend their careers inspiring 
youth through education about the space program. The Kansas 
Cosmosphere and Space Center, which I hope the Administrator 
will come to sometime, is the first affiliation of the National 
Air & Space Museum and has a program called the Future 
Astronaut Training Program.
    The program is essentially a space camp in which 11 to 15-
year-old students spend a week training, living, and acting 
like astronauts. The week ends with a simulated shuttle flight 
mission, complete with a pinning of astronaut wings upon 
landing. The excitement that many of the students feel at camp 
keeps them coming back for the second and third levels of the 
camp, which includes weightless training in a scuba tank and a 
trip to the Johnson Space Center.
    I might also add that one of my staff members now, Maggie 
Nelson, is a graduate of that program and works on NASA issues 
in my office, so I would call her a cadet graduate of the space 
camp in Kansas, and one that keeps her enthusiasm and focus 
going on this very important program.
    As NASA takes more serious and deliberate steps towards 
education, I encourage you to embrace the successes of the 
past. Students at all levels need to be inspired and captured 
by what NASA is accomplishing. I commend you, Administrator 
O'Keefe, on your efforts and visionary goals. I hope that we 
will one day see some of the youth of today on a manned mission 
to Mars.
    Again, thanks for holding the hearing. Thank you, Mr. 
Chairman, for doing this, and I think as we look to the future 
of NASA this is one of the most important things that we can 
try to push forward.
    Senator Wyden. Well, thank you, Senator Brownback. You and 
I have worked on a lot of initiatives over the years, and I 
look forward to pursuing this one with you.
    Well, I think Administrator O'Keefe has some exciting news 
for us, so let us go to that news and your testimony.

      STATEMENT OF HON. SEAN O'KEEFE, ADMINISTRATOR, NASA

    Mr. O'Keefe. Thank you, Mr. Chairman. The Space Shuttle 
Endeavor landed 20 minutes ago at Edwards Air Force Base. 
Everybody is fine, and there are certainly three members of 
that crew, Carl Walz, Dan Bursch, and Yuri Onifrienko, the 
commander of the expedition who are delighted to be back after 
their 6\1/2\ month stay, which now exceeds and is the new 
record for the longest duration of any American in space of 196 
days.
    Senator Wyden. Our congratulations to them and to you.
    Mr. O'Keefe. Thank you, sir. We appreciate it very much.
    Mr. Chairman, Senator Brownback, thank you very much for 
your willingness to conduct such a hearing. This is an 
initiative that we have just begun to really place great 
emphasis to and an opportunity showcase that a little bit, and 
we are grateful to you for your willingness to let us explore 
that a bit with you and to gain some thought from you as well 
in terms of how we can expand it and make it even more robust.
    One other tidbit of information I wanted to mention very 
quickly is, we have 20 members of the Goddard Academy here who 
are undergraduate students from around the country who are 
participating in study and research during the course of this 
summer at NASA's Goddard Space Flight Center, and their NASA 
mentor, David Rossage is here with them as well.
    Senator Wyden. Can we have them stand now so we can see all 
of them? Welcome to all of you.
    [Applause.]
    Mr. O'Keefe. They will all be receiving applications as 
they leave at the end of the summer in our continuing quest to 
inspire the next generation, that is for sure.
    First and foremost, in our efforts to narrow and be very 
specific about our focus at NASA, our mission objectives now 
include three. We have focused our attention to three primary 
focus areas. It is to understand and protect our home planet, 
to explore the universe, and to inspire that next generation of 
explorers, and this third area is the focus and the attention 
of the education initiatives that we seek to accomplish that 
task of inspiring the next generation of explorers for reasons, 
Mr. Chairman and Senator Brownback, that you have summarized 
very, very well in your opening statements.
    It is imperative that the next generation be motivated and 
considered as the opportunities for the continuation and the 
quest of exploration and discovery in math, science, 
technology, and engineering as pursuits in disciplines within 
their college pursuits as well, so as a consequence we seek 
very specifically to extend our outreach effort to concentrate 
this as a core mission area, to think very directly about how 
we affect the education opportunities that will not only, I 
think, contribute to NASA's interest, as you summarize, Mr. 
Chairman, given the talent pool that we will see and really 
diminish over the course of this decade, and as a consequence 
the opportunity to educate and inspire that next generation to 
assume those opportunities in the future, but also I think it 
is a larger national contribution in a way, in the aerospace 
community at large, as a chance to, I think correct some of the 
imbalances that are two-sided, Mr. Chairman, as well as to 
continue this ever-focused effort.
    We are about to explore the universe and to understand and 
protect our home planet as the other two objectives. In doing 
so, what we are attempting to do is to focus on this core 
mission area, to organize ourselves more directly to accomplish 
and to focus on an education outreach effort. Right now, there 
are just an incredible number of programs that we do throughout 
NASA at all 10 of our centers, at colleges and universities 
around the country, at grade schools and high schools around 
the Nation as well, and all of them are focused on a series of 
different objectives. Each of them are tremendous in their own 
right, but an effort that is not terribly coordinated in that 
context, and so as a consequence our first effort has been to 
think in organizational terms of how do we specifically 
organize ourselves to really leverage and multiply the 
opportunities we have in a range of cases to meet the kind of 
bold objectives that you cited and challenged us with, Mr. 
Chairman, in your opening statement, and to be able to 
accomplish those kinds of tasks requires a little more 
organization focus.
    In that regard, one of our leading experts on the staff at 
NASA, Paul Pastorek, who has been the president of the State 
Board of Education for the State of Louisiana for a number of 
years, prior to joining us at NASA just a few months ago is 
coordinating that effort and pulling together the activities in 
order to form that organizational focus we need in order to 
inspire the next generation of explorers.
    The second area is to look at the tools and resources 
necessary to aid educators and, indeed, today we have an 
opportunity here from an educator who is involved and has 
gained a lot of experience in dealing with the range of 
resources and capabilities we have throughout NASA, and we hope 
to do that even more coordinated in a more concentrated way in 
the future.
    In addition, we are also looking in the minority 
communities. We have a very vigorous historically black 
colleges and universities (HBCU) as well as Hispanic 
institution programs for research centers and a range of 
different activities for scholarships, fellowships, and grants, 
but nonetheless, what I have seen over the course of the last 6 
months in my capacity as Administrator is an absence of our 
clear objectives thereafter to then recruit the folks who are 
the direct consequence of the efforts we have placed at HBCU's 
and Hispanic institutions as well, so we seek to really put a 
direct linkage to those kinds of programs that have been 
active, have been robust, but indeed need more attention in 
order to assure that on the recruiting side of the equation we 
are able to bring them to the aerospace community at large, or 
to the NASA family very specifically.
    Fourth, we are looking to focus our attention very directly 
in a way that complements and that takes advantage of other 
Federal agency activity in this area. The President's 
initiatives on math and science partnership arrangements, as 
well as the very specific efforts the Congress engaged in to 
enact the no-child-left-behind legislation last year is a rare 
opportunity to really participate in what has become a very 
vibrant effort at the Department of Education in order to 
establish outreach programs that are more coordinated, more 
focused, and more attentive to what we see as the education 
needs across the board. So as a consequence we are working 
hand-in-glove with the Department of Education, following their 
lead in terms of the outreach efforts, and with the National 
Science Foundation, very specifically to think in terms of how 
we will organize our efforts across the board.
    And finally to add a signature effort to this, to really 
gain the excitement necessary to motivate the interest that we 
will see there, and to utilize the capacity that we have 
invested in so extensively over the course of the last decades. 
We have sought to establish an educator mission specialist 
series, and fully trained astronaut program element which will 
seek to recruit teachers, educators to the task of qualifying 
as astronauts and participating in the full range of activities 
on any mission, to include the kinds of missions we saw just 
successfully completed here moments ago.
    So our very first educator mission specialist, Barbara 
Morgan, will be slated for flight in 2004. She is in the 
advanced candidate program right now, has completed all the 
efforts in order to be fully qualified in that regard, and will 
now begin training in the months ahead for her specific mission 
objectives, and today I think we have an opportunity to hear 
from Jim Voss, who will explain what that range of 
opportunities are that can be gained from the International 
Space Station in a way that uniquely teachers and educators can 
view that capacity as a way to transmit and provide greater 
insight to the exploration and discovery objectives.
    Jim having served as a crew member on the expedition 2, the 
second mission of extended duration on International Space 
Station, he has now fully recovered, so he is empathizing with 
his three colleagues who have just now returned, and 
understands exactly what they have gone through. I think it 
will give us some insight in terms of how extensive that 
capacity may be utilized.
    And I think today, in conclusion, Mr. Chairman, we also 
have a rare opportunity to meet a couple of the next generation 
we really seek to motivate. Both Christopher and Brandon are 
folks that we intend to be sure they leave with applications 
dated in the year 2012, so that we can be the first to motivate 
them to join the NASA family as soon as they complete their 
studies after college, and I think they will give us a hint 
today of their interest and zeal for the science and 
engineering professions as well.
    Again, thank you, Mr. Chairman, for your willingness to 
host this hearing and the opportunity to explore this question 
and to gain some thoughts and ideas from you and Senator 
Brownback in terms of how we may improve this even further.
    [The prepared statement of Mr. O'Keefe follows:]

      Prepared Statement of Hon. Sean O'Keefe, Administrator, NASA

    I appreciate the opportunity to appear before the Subcommittee 
today to share with you the vision and mission of the NASA Education 
Program. Since becoming Administrator, it has been my fortune to meet 
some of the most innovative and imaginative people our Nation has ever 
produced. The men and women of NASA do remarkable things every day. 
From designing, constructing and operating an orbiting laboratory 
traveling at over 17,000 miles an hour, two hundred and fifty miles 
above the Earth, to designing new systems and technologies that enable 
our aircraft to fly faster and safer, these revolutions of engineering 
and American know-how are testament to this Agency's ability to 
transform our way of life in countless and unimagined ways. As we all 
know, NASA's past is legendary but its future is full of even greater 
promise. Our mission in this endeavor is Education and our charge as 
directed by our new Mission Statement is to inspire the next generation 
of explorers . . . as only NASA can.

    With a charter like no other, NASA has led some of the most unique 
missions in the world. From traveling to low-Earth orbit and walking on 
the Moon, to viewing the farthest reaches of our solar system, NASA has 
continually worked to share the discovery and adventure along the way. 
Each of these achievements are things that only NASA can do and as 
such, it is this Agency's responsibility to be sure that those 
experiences are shared with inquisitive minds who want to go even 
further. For those minds to be ready for the future challenges that 
await them, we as an Agency must do everything we can to inspire and 
prepare them.

    Every mission we accept requires the sharpest of minds, the 
strength of purpose and the drive to challenge barriers and frontiers. 
The minds we seek to develop will do those things and more for NASA, 
but more importantly, they will do these things for our Nation as well. 
NASA not only needs a future with more engineers and scientists, but 
our Nation does as well. Our current and future missions are dependent 
upon such minds and it is our charge to help our Nation prepare them 
for the challenges ahead. As the Hart-Rudman Commission found, ``Second 
only to a weapon of mass destruction detonating in an American city, we 
can think of nothing more dangerous than a failure to manage properly 
science, technology, and education for the common good over the next 
century.''

    The Commission's Report further declared that, ``The harsh fact is 
that theU.S.need for the highest quality human capital in science, 
mathematics, and engineering is not being met.''

    Failure is not an option in this endeavor. NASA's future missions, 
as well as our national and economic security, are dependent upon our 
success. The human capital proposals contained in title II of our 
proposed NASA authorization bill for fiscal year 2003 which we 
submitted to the Congress on May 29 are intended to address some of 
these challenges. These legislative tools are consistent with 
government-wide provisions contained in the President's Managerial 
Flexibility Act. It is imperative to pursue enactment of these vital 
tools for NASA to help meet our recruiting and retention of human 
capital. Together with the National Aeronautics and Space 
Administration Science and Technology Career Enhancement Act previously 
submitted to Congress on July 20, 2001, this legislation will give NASA 
significant tools with which to improve the pipeline of science and 
engineering talent for our Nation's workforce.

    I look forward to working with the Committee on this legislation.

    Complementing these efforts is NASA's FY03 request for Academic 
Programs. The Agency's $143.7M request has two components--base funding 
for the Education Program and the Minority University Research and 
Education Program:

        1) The Education Program request is for $61.6M. This request 
        provides funding for a comprehensive program that includes: 
        $11.3M for student support, $9.2M for teacher/faculty 
        preparation and enhancement programs, $30.4 for state-based 
        support of education, $9.1M for educational technology, and 
        $1.6M for evaluation.

        2) The Minority University Research and Education Program 
        request is $82.1M. This request provides funding for 
        Historically Black Colleges and Universities ($49.7M) and Other 
        Minority Universities ($32.4).

    These future investments, combined with the Congress' and 
Administration's previous support have built a remarkable foundation 
for the Agency's education programs. This foundation though is in need 
of expansion. Not by the addition of more dollars, but rather through 
closer coordination within the Agency's internal operations as well as 
with our education partners, the U.S. Department of Education as well 
as other public and private sector stakeholders. I look forward to 
working with the Committee on these and other efforts that impact 
America's space and aeronautics program.

    With these thoughts in mind, there are five key points covered in 
this testimony:

        1) NASA has made Education a core mission of the Agency;

        2) NASA accepts the responsibility of inspiring the next 
        generation of explorers;

        3) NASA is reaching out to minority communities to make them 
        integral partners in the Agency's mission;

        4) NASA will work with other federal, state and local 
        governments, as well as industry members, educational 
        organizations and public stakeholders to ensure mission 
        success; and,

        5) NASA's Education initiatives will reach more American 
        students than before.

    With its network of NASA Centers and educational partners across 
the Nation, NASA is moving forward in each of these five areas. The 
President has issued a call to all Americans that there be no child 
left behind when it comes to Education. NASA has accepted its 
responsibility in that charge, and as one of the Nation's stewards in 
developing new technologies and opening new frontiers in air, space and 
innovation, we are prepared to share the promise and discovery of 
tomorrow's future.

1) NASA has made Education a core mission of the Agency.
    Upon becoming Administrator, I was personally moved by my 
interactions with young people, at our Centers as well as in my own 
family, and the connection and inspiration that they feel to America's 
space program. Young people are full of wonder and discovery and NASA 
has a responsibility to help those traits mature. As we seek to improve 
our life here, and extend life beyond our known universe, we must work 
to inspire our children to explore the great frontiers of our solar 
system and conquer the challenges of propulsion, human biology and 
technology that keep us close to our home planet. That means we have to 
help our students understand how mathematics, science, engineering and 
technology come together to make exploration and innovation possible. 
Too many students avoid these subjects because they are seen as 
unpopular, not relevant to their daily lives, or too difficult. These 
very subject areas though are the fundamental baseline of NASA mission 
success. Without them, Space Shuttles do not fly, Space Stations are 
not built, aircraft are not tested and universes go undiscovered. We 
will not be able to explore without them.
    Since its inception more than forty years ago, NASA has worked to 
share its findings and missions with the educators and the students who 
wanted to know more about the world and universe that surrounds them. 
The resulting programs and initiatives have targeted our Nation's K-12 
students as well as our undergraduate, graduate and doctoral students. 
Today the Agency is served by many of the alumni of these efforts who 
work in various capacities at NASA Centers, universities, affiliated 
research organizations or in industry. The challenge before us today 
though is to extend the reach of our education efforts even further. 
Currently, NASA's education programs are distributed throughout our ten 
Field Centers, our five strategic Enterprises, as well as two Agency-
wide functional offices. These efforts have been highly productive and 
have produced numerous success stories in students and classrooms 
across the country. But a more coordinated management approach will 
further enhance our reach and enable our performance level to reach new 
heights.
    Recently, an internal Agency Task Force was formed to examine the 
Agency's current education mechanisms, its best practices, and ways 
that could merge existing efforts into a more cohesive and coordinated 
approach. The Task Force members will discuss with our educational 
stakeholders, particularly in the minority communities, those means 
that would help us reach more students and inspire them to pursue 
futures in mathematics, science and engineering.
    The findings and recommendations from the Task Force are to be 
reported to me shortly. It is my hope that upon receipt of their final 
report, a new and re-energized NASA Education Program will be formed to 
enhance the success of an already impressive history by NASA in the 
education area.
    Once a new educational organization has been established, we will 
examine the unique tools and experiences that we provide to our 
Nation's educators. If we are to expect our teachers and professors to 
build the workforce of the future, we must provide the tools and 
experiences that can best help them participate in the missions and 
discoveries that NASA has made possible.
    Extending our reach to underserved and underrepresented communities 
is critically important to me and to NASA. Our missions are meant to 
serve the interests of humanity and that means building a mission-
oriented team that represents the best and brightest of America. The 
challenge before NASA as well as our Nation is reaching out to those 
communities that have traditionally not been a part of such a mission 
and opening the door of opportunity to invite them to take part. NASA's 
Kennedy Space Center and the State of Florida opened such a door this 
past year.
    In a program inspired by Florida's First Lady, Columba Bush, 
Kennedy Space Center, in partnership with the Florida Department of 
Education, created the Student Educational Experience (SEE)--NASA 
Program. The SEE-NASA Program targets 5th grade students in Florida in 
schools that are underperforming in science and mathematics in an 
effort to help answer the question, ``why do I need to study science 
and math?'' By exposing these students to ``hands-on'' activities that 
relate to real-world circumstances as well as NASA missions, this 
program seeks to inspire these students to achieve things that they may 
never have considered before. While the SEE-NASA Program's goal is to 
inspire its students to further their study of mathematics, science and 
technology, it also works with these students' teachers to prepare them 
before the actual program begins, as well as following the program's 
conclusion. By providing these teachers with the ``tools'' to keep 
their students inspired and interested in mathematics and science long 
after they have left the Kennedy Space Center, a new door of 
opportunity for a new generation of explorers is opened. This door 
would not have opened though without the help of the Florida Department 
of Education and many other Florida education stakeholders.
    This partnership between NASA and the State of Florida is not 
unique. NASA will continue to work with Secretary Paige and the U.S. 
Department of Education in all 50 states and with their respective 
education departments to understand not just the internal 
infrastructures of reaching teachers and students, but to understand 
each of the state's educational standards as well. With the increased 
attention our Nation is giving to student achievement, NASA too is 
paying attention to this national trend. Our states and our teachers 
are at the forefront of the education challenge and as such, NASA's 
education program is making every effort to listen and understand what 
their needs are and how we can assist them in ways that only NASA can. 
By providing them the ``tools,'' experiences and, where possible, 
training, NASA can better help these educators serve our communities 
and our children.
    Such services to educators and students are not limited to those 
areas that reside near a NASA Field Center. NASA is working to ensure 
that every region of our country is reached. NASA's Aerospace Education 
Service Program (AESP) served over 1,500 schools during the 2001-2002 
school year. This included 1,207 workshops for 14,093 teachers; 2,817 
programs presented for 186,440 students; and visited 2,249 classrooms 
touching 44,584 students. Located in all 50 states, the AESP enables 
NASA to send an expertly trained education specialist to visit school 
districts and provide training to teachers in mathematics, science, 
technology and geography instruction. By showing them real-NASA 
applications that can be taken back into the classroom, NASA helps 
these teachers to turn more students' minds toward the direction of 
mathematics, science and engineering.
    In addition to AESP, NASA is also working with our Nation's museums 
and science centers to better educate the public about the universe, 
our role in it and the discoveries that NASA researchers and their 
partners are making. Recently NASA signed a Memorandum of Understanding 
(MOU) with six of the Nation's premier science centers/museums and the 
Association of Science and Technology Centers. This MOU is designed to 
help NASA reach even more communities by providing increased access to 
our missions, educational programming, and unique NASA experiences. 
Explorers reside across our country and by sharing our experiences in a 
variety of settings, NASA can bring them to our greatest adventures.
    The American Museum of Natural History's Rose Center for Earth and 
Space, located in downtown Manhattan, provides in-person and virtual/
electronic programming to students, families and educators on the 
formation of our galaxy, the creation of stars and the expansion of our 
universe. In addition to opening their minds about the surrounding 
universe, the Museum's Earth Science Bulletin provides a virtual source 
of news breaking events that are occurring on our planet (i.e. 
volcanoes, hurricanes, earthquakes). By providing such real-time 
information and ``educating'' visitors about our planet, NASA and its 
Museum/Science Center partners are promoting better understanding of 
our Earth and our universe. The Rose Center was also the site of last 
week's presentation of the flags flown for the victims of the World 
Trade Center lost on September 11th.
    The Agency also links inquisitive minds to its various missions 
through the power of the Internet. NASA's presence on the World Wide 
Web has provided millions of students with the information they have 
wanted to know about the planets, our astronauts, and our on-going 
exploration of the universe. By giving students a ``passenger seat'' 
for the mission of their interest, the Agency looks to feed their 
curiosity and encourage them to study the disciplines that will take 
their knowledge, and NASA's further. NASA's efforts under the 
President's Management Agenda and its ``E-Government'' initiative are 
accelerating and expanding these opportunities and in the Fall of 2002, 
more educational programming directly linked to NASA's upcoming 
missions to the International Space Station and Mars exploration will 
be available on-line.
    In addition to utilizing the Internet to connect students and 
educators to our missions, NASA also has an accomplished presence in 
television as well. This past Saturday, June 15, 2002, the NASA's 
CONNECT<SUP>TM</SUP> program, ``Geometry and Algebra: The Future Flight 
Equation,'' received a regional Emmy award in the category ``Children's 
Programming'' in a competition sponsored by the Washington, D.C. 
Chapter of the National Academy of Television Arts and Sciences. This 
is the fifth Emmy the NASA CONNECT<SUP>TM</SUP> series has received and 
the eighth Emmy in the Agency's history. ``Geometry and Algebra: The 
Future Flight Equation'' focuses on experimental aircraft and the 
Hyper-X Research Vehicle. NASA CONNECT<SUP>TM</SUP> is a research and 
standards-based, award-winning series of mathematics-focused, 
instructional programs for students in grades 6-8. Each program in the 
series includes a 30-minute instructional broadcast, an educator guide, 
and an interactive web-based component. Programs in the series 
establish a connection between the mathematics, science, and technology 
concepts taught in the classroom to those used everyday by NASA 
researchers. The educator guide, containing a hands-on activity, and 
the web-based component reinforce and extend the objectives presented 
in the program. The NASA CONNECT<SUP>TM</SUP> program is broadcast 
nationally on Cable Access, ITV, and PBS-member stations.
    While NASA's programming may be available in many of the Nation's 
classrooms, computers, museums and science centers and televisions, the 
Agency will continue to explore new avenues to help open the minds of 
more students to the promise that mathematics, science, engineering and 
technology pose for their future. With the addition of Educator Mission 
Specialists to NASA's astronaut corps, the Agency's educational 
horizons and capabilities will continue to expand. The launch of 
Barbara Morgan, following core completion of the International Space 
Station, will be our first step in this new ambitious effort. Those 
that follow Barbara will build upon her success and take our Education 
mission to even greater heights.

2) NASA accepts the responsibility of inspiring the next generation of 
        explorers.
    Our Nation's educators hold one of the world's most influential and 
esteemed positions. They are molding the future of a country that has 
explored the world and its surrounding universe in ways and means once 
never imagined. Regardless of their age, the students that sit in 
today's classrooms will inherit a legacy marked by huge strides in 
technology and innovation. Our challenge at NASA is finding the men and 
women who will take these technologies and innovations to their next 
level. Our charge as a Nation and as an Agency is to do everything we 
can to prepare that next generation for that responsibility.
    For years, NASA has offered unique opportunities for educators and 
students to participate in inspirational, ``once in a lifetime'' 
educational opportunities. Whether as students participating in a KC-
135 parabolic flight experiment, constructing payloads and small launch 
vehicles as part of the National Student Involvement Program (NSIP), or 
by polishing mirrors for a satellite--and then tracking its orbit via 
computers and telescopes, each of these examples are all opportunities 
that NASA has uniquely enabled. The Agency recognizes its unequaled 
position and the responsibility that comes with it.
    The Agency imperative for pursuing a renewed focus to education is 
immediate. At NASA's Marshall Space Flight Center in Huntsville, 
Alabama, 62 engineers out of the 3,000-person workforce are under 30 
years old. Our over-60 population, across the Agency is three times 
larger than the under-30 workforce. Inspiring the next generation of 
explorers to enter fields of science and engineering is critical to 
NASA's success in reconstituting our workforce for the 21st Century 
challenges.
    NASA is not alone in its search for enthusiastic and qualified 
human capital. Throughout the federal government, as well as the 
private sector, the challenge faced by a lack of scientists and 
engineers is real and is growing by the day. A recent Wall Street 
Journal article, dated June 7, 2002, chronicled the challenge faced by 
our Nation. The article written by Sharon Begley, entitled ``As We Lose 
Engineers, Who Will Take Us Into the Future?'' explained that, 
``Engineering bachelor's degrees peaked in 1985 at 77,572, and plunged 
to 60,914 in 1998. By the mid-1990s, more kids were getting degrees in 
`parks and recreation' than in electrical engineering.''
    In sharp contrast, the demand for math, science and engineering 
disciplines is growing. The U.S. Department of Labor's Bureau of Labor 
Statistics echoes these trends. In their report, Working in the 21st 
Century, the Bureau states that seven of the ten fastest growing 
occupations require some application of mathematics and science.
    In building a future workforce, our Nation must begin to understand 
the qualities and challenges that will be encountered in constructing 
it. That means preparing future workers with the skills necessary to 
compete.
    In the State of Mississippi, they are working to build a future 
workforce to serve the emerging geospatial technology industry. These 
technologies comprise one of the fastest growing high technology 
sectors today, with expected growth to $21 billion by the year 2005. 
NASA's Earth Science Enterprise and the NASA John C. Stennis Space 
Center Office of Education are leading the National Workforce 
Development Education and Training Initiative. Representing a 
collaboration of organizations, the Initiative is based on the 
successful Mississippi Model, which is customer driven, utilizes 
existing infrastructures and is designed to create systemic change. As 
a result, all 7-9th grade students in Mississippi will learn about the 
applications of geospatial technologies and how they may become part of 
that workforce.
    Our Nation's future is built upon the minds that accept the hard 
challenges that mathematics, engineering and science offer. That is why 
we at NASA through our current and future missions, as well as through 
our re-energized Education Program, will work with the Congress and our 
federal, state and local government, and other public and private 
sector educational partners to reverse this trend.
    NASA's missions once inspired a generation to explore the stars and 
race for the Moon. While our missions and points of destination have 
changed, the same challenges remain very much a part of our future. We 
accept our responsibility to inspire a new generation of explorers and 
we will succeed in ways that only NASA can.

3) NASA is reaching out to minority communities to make them integral 
        partners in the Agency's mission.
    NASA's success is a result of the talented men and women who come 
together around a mission, form a team around that effort and work 
tirelessly and cooperatively for mission success. The results of these 
efforts are legendary but at NASA these results occur everyday in ways 
heralded in news headlines and in so many countless, anonymous ways. 
Regardless of the team's recognition, the formula has always been the 
same--empower talented people with a mission and resources to make 
something happen and let them go. Before that team can achieve success 
though, team members have to be built.
    At Marshall Space Flight Center, the Student Launch Initiative 
(SLI) is helping to build those future NASA Team members. The SLI 
involves high school and college students in the design, building and 
testing of reusable rockets with associated scientific payloads. This 
unique, hands-on experience allows students to demonstrate proof-of-
concept for their designs and gives previously abstract concepts 
tangibility. At the high school level, several schools compete to 
construct a vehicle designed to reach an altitude of one-mile. In 
addition to actual vehicle performance, schools are also evaluated on 
design and other criteria. Two local universities have recently 
completed the first year of the program with one institution 
constructing a vehicle that reached two miles and the other providing 
the payload. Future plans for the college level could include expansion 
of the program to a regional or statewide level.
    While the SLI program is a good example of the Agency's efforts to 
develop future NASA team members in Alabama, the Agency is also 
aggressively exploring the expansion of its team in the Nation's 
minority communities. As the Bureau of Labor Statistics Report, 
``Working in the 21st Century,'' has chronicled, ``minorities are the 
fastest growing part of the labor force.'' As such, NASA must do 
everything it can to further enhance their involvement in our existing 
efforts, as well as future missions. Such efforts must target multiple 
areas and NASA has already begun a strong foundation upon which to 
build.
    Programs such as the Summer High School Apprenticeship Research 
Program (SHARP) provide over 450 students the opportunity to 
participate in an intensive science and engineering apprenticeship 
program at a NASA Center or affiliated research facility. These eight-
week paid apprenticeships enable participating students during the 
summer months to participate in hands-on research with NASA mentors and 
become exposed to careers related to mathematics, science, engineering 
and technology. In 2001, 79 percent of the students participating in 
SHARP were from minority communities. Of the more than 5,000 students 
that have participated in SHARP, 90 percent have enrolled in college 
majoring in a math, science, engineering or technology discipline and 
80 percent of SHARP's students are now working in math, science, 
engineering and technology related fields.
    NASA plans to highlight our substantive programs to integrate 
underrepresented students into research and education opportunities and 
use the NASA mission to motivate and prepare today's students and 
educators to become tomorrow's scientists, mathematicians and 
engineers. These efforts come from our reaching out to Historically 
Black Colleges and Universities (HBCUs), Hispanic Serving Institutions 
(HSIs), Tribal Colleges and Universities (TCUs), and Other Minority 
Universities (OMUs) to enhance their involvement in the Agency's 
mission.
    Before many of these students enter these institutions though, an 
educational pipeline must be created that engages students in the 
earliest grades and motivates them to continue on through college, 
graduate school and postgraduate studies. By using NASA's educational 
resources--including scientific, technical and educational personnel--
to strengthen pre-college programs, NASA assists students to be (1) 
fully prepared in college preparatory subjects when they enter college, 
(2) able to handle the rigorous academic level of college, and (3) 
motivated to continue to advanced degrees in mathematics and science 
disciplines. Through these early interventions in mathematics and 
science, we hope to achieve NASA's goal ``to inspire the next 
generation of explorers'' and increase the number of underrepresented 
students in that exploration. Pre-college programs, such as Science, 
Engineering, Mathematics, Aerospace Academy (SEMAA); Precollege 
Achievement of Excellence in Mathematics, Science, Engineering and 
Technology (PACE/MSET); Saturday Academies; TEXPREP; and Projecto 
ACCESS, provide hands on/minds on experiences that motivate and prepare 
students to pursue NASA-related careers.
    NASA is also opening opportunities for minority institutions to 
contribute directly to improving our Nation's scientific literacy. 
Through broad-based, competitive, multidisciplinary research programs 
operated by undergraduate, graduate and faculty research programs and 
University Research Centers (URC), some major scientific research 
contributions have been made. Some examples include:

          Tennessee State University Center for Automated Space Science 
        observed the first direct detection of an extra-solar planet, 
        marking the first time that properties of such a planet could 
        be directly measured.

          Tuskegee University Center for Food and Environmental Systems 
        for Human Exploration of Space flew the sweet potato stem-
        cutting experiment on the Space Shuttle Columbia, mission STS-
        93, which flew in July 1999. This valuable research will 
        contribute to our knowledge of the care and feeding of humans 
        on long duration space flight.

          The University of Puerto Rico at Mayaguez partnered with 
        NASA's Goddard Space Flight Center in Maryland to establish a 
        satellite receiving station for one-tenth of the typical cost 
        for remote-sensing ground stations. This project was recognized 
        as a model for academic institutions seeking low-cost remote-
        sensing receiving capabilities.

          The NASA Center for Applied Radiation Research (CARR) at 
        Prairie View A&M University is seeking ways to incorporate and 
        optimize radiation tolerance of a human spacecraft by taking a 
        systems approach to the spacecraft design. The research at 
        Prairie View studies the effects associated with radiation 
        interaction with materials, as well as radiation effects on 
        electronics and radiation shielding. CARR's projects are linked 
        to the expressed needs of NASA's Human Exploration and 
        Development of Space Enterprise and the Aerospace Technology 
        Enterprise.

    For our country to be able to venture forward with future missions 
in aeronautics and space exploration, the participation of the minority 
community is critical to achieving mission success. It is the diversity 
of a team's membership, at NASA or any other organization that enables 
it to do the most amazing things. Our leadership in these areas has 
been good but there is still much we can do. As world history can 
attest, exploration opens many doors of opportunity and at NASA we will 
continue to open those doors everyday. With leaders and examples such 
as Mar's Program Director, Dr. Orlando Figueroa; the 2002 Black 
Engineer of the Year, Kennedy Space Center's Kelvin Manning and Olga 
Dominguez, our Agency's Chief Environmental Officer to guide us and our 
Nation's youth, the next generation of explorers will leave no child 
behind.

4) NASA will work with other federal, state and local governments, as 
        well as industry members, educational organizations and public 
        stakeholders to ensure mission success.
    While there are missions and activities that only NASA can perform, 
it cannot complete its education in a vacuum. Partnerships and 
relationships with stakeholders in government, the private and public 
sector, both inside and outside of education must be engaged. Each of 
these constituencies has a vested interest in forming the human capital 
that can contribute to our Nation's future in mathematics, science and 
technology areas. NASA has begun discussions with the interagency team 
that is implementing the U.S. Department of Education's and National 
Science Foundation's (NSF) Math and Science Partnerships. The resulting 
dialogue between NASA, the Department of Education, NSF, and the other 
Initiative partners has revealed how we can complement each 
organization in developing interest and engagement in math, science and 
technology related careers by America's students.
    The challenge before this partnership is a significant one. The 
recently issued report by the National Commission on Mathematics and 
Science Teaching in the 21st Century, Before It's Too Late, captured 
the urgency of this challenge when it declared that, ``more than 
240,000 new and qualified science and mathematics teachers are needed 
in our K-12 classrooms over the next decade (out of a total need for an 
estimated 2.2 million new teachers).''
    Addressing such circumstances is a challenge that requires teamwork 
on the part of our National and state governments. NASA has accepted 
this challenge and helped form Texas Aerospace Scholars (TAS). As an 
outcome of a partnership created in 1999 among the NASA Johnson Space 
Center (JSC), the Texas State Legislature, schools, universities, and 
diverse community organizations like Rotary and the Houston Rodeo, TAS 
encourages students to consider careers in science and engineering. In 
the Middle School Aerospace Scholars program, teams of 8th grade 
teachers from across the state of Texas begin this year-long program 
with a one-week summer professional development experience at JSC, 
learning how to integrate distance learning programs (videoconference 
and webcast technology) into their classrooms during the school year. 
The Community College Aerospace Scholars (CAS) provides 300 community 
college students and 30 professors with web-based assignments and a 
two-day visit to JSC where students and professors interact with 
engineers and scientists. Finally, High School Aerospace Scholars, for 
high school juniors, combines an interactive online learning experience 
along with a weeklong residential experience during the summer at JSC.
    NASA's Space Grant Consortium is another example of partners 
working together to advance the mission of education. Located in all 50 
states and Washington, D.C. and Puerto Rico, Space Grant links 512 of 
the Nation's colleges/universities, 73 businesses/industries, 36 State/
Local governments and 165 other affiliates into a network that is 
advancing space and aeronautics related research. Over 3 million people 
have been served by this program while helping to build the next 
generation of leaders, researchers, innovators and explorers in space-
related fields. NASA's $19.1M investment in FY2000 was leveraged with 
$55M in other funds from industry, academia and other government 
funding sources. This type of partnership distributes not just the 
responsibility for funding such an enterprise, but shares the 
participation and subsequent return on investment. When formed by 
Congress in 1989, it was never intended for NASA to be the sole 
beneficiary of Space Grant. Rather, it was the Nation who stood to 
benefit from developing increased research capabilities in our colleges 
and universities and a skilled workforce that could share its knowledge 
and experiences with industry, academia and NASA.
    Each of the education partnerships I have highlighted are 
emblematic of the approach that NASA takes to all of its missions. Each 
partner and team member brings their expertise to the table and through 
dialogue, understanding and working together, goals are achieved and 
missions are completed. Our mission in education and in inspiring the 
next generation of explorers is one mission though that will never be 
complete, or one in which we will tire. Our future rests with each 
subsequent generation and each of us must do our part to prepare one 
another for a future of challenge, promise and unlimited possibility. 
NASA welcomes all partners in that endeavor and looks forward to 
working with each of them.

5) NASA's Education initiatives will reach more American students than 
        before.
    The programs and initiatives that I have presented to you in this 
submission represent a small but illustrative part of NASA's present 
education capabilities. While all are impressive and accomplished and 
have made a difference to lives of many people, there is still more 
that can be done by this Agency to reach out to more of our Nation's 
youth.
    In a talk at Syracuse University two months ago, I outlined NASA's 
new vision and mission and announced the initiation of the Educator 
Mission Specialist Program as the signature piece of NASA's renewed 
commitment to education and teachers. The first EMS, Barbara Morgan, 
will soon be assigned to a Space Shuttle flight after completion of the 
International Space Station core configuration. The opportunity to 
inspire students, motivate teachers, and engage the public through Ms. 
Morgan and future Educator Mission Specialists, whose profession as 
teachers is to communicate scientific and technical concepts, will 
enable NASA to invigorate a resurgence in educational achievement in 
science, mathematics, engineering, and technology.
    To fully realize our vision for the EMS program we have begun to 
outline the details of this initiative with the U.S. Department of 
Education, the National Science Foundation, and other education 
organizations. We will implement the EMS program in full consultation 
and collaboration with the educational community, to help ensure that 
the potential of this national asset is fully realized.
    Not only will we involve professional educators in the 
implementation of the EMS program, we hope to involve students 
throughout the country in this process as well. We're planning to ask 
their opinions of what makes a good teacher of science, mathematics, or 
technology. We want to know what activities and investigations from 
this ``classroom'' in space will engage and inspire them. Most of all, 
we want to engage their participation and inspire the next generation 
of explorers.
    By harnessing the awe-inspiring power of space exploration to the 
teaching experience, the EMS program and the other education activities 
I've described today will enable NASA to make an important contribution 
to the goals embodied in the landmark legislation that Congress enacted 
with the passage of the President's historic legislation that there be 
No Child Left Behind. The minds of America's young people need 
inspiring missions of exploration to challenge and motivate them to 
great achievements. Our nation's teachers need NASA's mission of 
discovery to serve as a teaching tool for powerful ideas. The EMS 
program will engage students and their teachers in new learning 
opportunities and promote interest and achievement in science, 
mathematics, and technology.
    The future steps that we take--a new, more coordinated Office of 
Education to better serve our Nation's students and educators; the 
expansion of our Astronaut corps to include Educator Mission 
Specialists; increased utilization of the Internet and information 
technologies to connect students, educators and the public at large to 
our missions here on Earth and beyond; as well as many more--are all 
steps that NASA takes in the great frontier of expanding human 
knowledge.
    The vision for NASA is to improve our lives here on Earth, extend 
our lives to reaches far beyond our home, and find life beyond. 
Everyday that vision is being fulfilled at NASA. Barriers that once 
held us back are being broken and unexplored frontiers, once never 
imagined, have become our daily realm for operation. We accept this 
vision with vigor and boundless energy but that excitement comes with 
immense responsibility. The greatest mission this Agency has ever 
accepted is helping to open the mind of a child to unimagined 
possibilities.
    The men and women of NASA are committed to ensuring those who 
follow us in the great missions of tomorrow are prepared to accept the 
challenges and circumstances that come with them. Our efforts in 
science, mathematics, engineering, and technology education, in 
partnership with many team members from throughout the Administration, 
the Congress, and the public and private sectors, will prepare those 
generations. It is a mission that we accept and a mission that we will 
not fail to accomplish. The next generation of explorers demands our 
success. It is an adventure that NASA welcomes.
    [Response to Senator Allen's questions to Mr. O'Keefe follows:]
                                 ______
                                 
    Response to Written Questions Submitted by Hon. George Allen to 
                              Sean O'Keefe
    Question. The NASA Student Involvement Program provides a wonderful 
opportunity to interest students in space as well as promote science, 
math, and technology education. What are NASA's plans to improve and 
expand this program?
    Answer. NASA is in the midst of focusing our Education Program to 
support Education as a core mission of the Agency: to inspire the next 
generation of explorers . . . as only NASA can.
    The NASA Student Involvement Program (NSIP) is one of NASA's 
national programs that ``inspires the next generation of explorers.'' 
As we strengthen our Education Programs to align with our new core 
mission, NSIP will continue to provide a valuable asset to this new 
emphasis.

    Senator Wyden. Thank you very much. That gets us off to an 
excellent start, and we will just go right to our additional 
panelists. Let me recognize Astronaut Colonel Jim Voss.

      STATEMENT OF COLONEL JAMES S. VOSS, ASTRONAUT, NASA

    Colonel Voss. Thank you very much for the opportunity to 
come and talk to you today. In particular, I want to talk to 
you about the power of space flight to be used as an 
educational tool. We want to inspire the next generation of 
space explorers, and I truly believe that the assets we have in 
space can be used for that.
    Last year, I spent 5\1/2\ months onboard the International 
Space Station, along with my crew mate, Susan Helms, and Yuri 
Usachev. We had the opportunity to interact with a large number 
of teachers and students and to conduct educational activities 
from the International Space Station. I know that our work with 
them both motivated and inspired them.
    You know, we were just beginning the assembly of the Space 
Station last year. It was an extremely busy time. We were still 
having things that needed some help to make them go right. We 
were very busy. NASA thought so highly of our educational 
endeavors in space that they still scheduled numerous 
activities for us. We had over 20 different educational 
activities that were done during our 5\1/2\ months. That is 
about one every week that we were up there when we did not have 
a shuttle crew onboard. I think that shows a lot of commitment 
in the early phases of the Space Station program.
    The Space Station is such a unique orbiting classroom. It 
is a laboratory, but it is also a classroom. You are able to 
demonstrate some things in space that you just cannot do down 
here. Newton's laws of motion work perfectly up there, and when 
you show them in space, people really can understand them 
completely. It is just a wonderful classroom, and we can teach 
a lot of things from there.
    We had several specific experiments that were done during 
the expedition 2 to the International Space Station. One of 
them was called EarthKAM. That is the Earth knowledge acquired 
by middle school students, and what it is, is an electronic 
camera that is looking back at the Earth. It is attached to a 
computer. Students all around the country decided what they 
wanted to take pictures of, they input their selection into a 
process very similar to what we use for normal scientific 
research onboard the International Space Station, and then 
those pictures were taken automatically for them, returned to 
the ground, and then they used them in their research in the 
classroom. It is just a wonderful example of getting students 
involved in real world research in space.
    We took 488 images that were used in the classroom that are 
now available for the public for other classrooms to use. I am 
extremely happy to have participated in that. It was very 
rewarding to me personally to be able to help those students 
with their research.
    There is another educational program that has to do with 
our amateur radio on the International Space Station. This is a 
ham radio. It offers the opportunity for students to experience 
the excitement of talking directly to an astronaut in space and 
having their questions answered via this ham radio system. 
During the year and a half that we have had human beings 
onboard the International Space Station, we have had 65 
contacts with classrooms in 26 States and in 10 different 
countries, and during that time, hundreds of students have 
asked questions of astronauts in orbit, and over 15,000 other 
students, their classmates, have listened to those answers. It 
is a way that really gets students involved and excited about 
space, science, and other things, and if you will bear with me, 
I would like to read something from a gentleman who was 
involved with one of these events.
    It is from a Mr. Alan White, who is from Eufalla, Alabama, 
and he wrote me a note after my flight that said this. Did the 
contact with the ISS have educational benefits? Yes. That was 
his emphasis. Would we spend the time and preparation to do it 
again? Yes. There is no way I can adequately describe the 
excitement this created in our school and community. I think 
this was the most exciting educational event of the year for 
these students. Nearly 100 students submitted questions. All 
three of the science teachers at the Admiral Moore Middle 
School, the principal, and the school administrators supported 
the efforts in every way possible.
    Interesting, the space studies unit was heightened. The 
U.S. space program and the International Space Station became 
real to both the students and the community because our kids 
actually talked directly to an astronaut in space. The space 
program was no longer just something they had read about. And I 
like this part. This event was the talk of the town for weeks. 
So not only did it get the kids involved, but the entire 
community. This is the typical reaction that I heard here from 
the educational activities that we have participated in space.
    There is another area that we also conducted educational 
activities, and that was the NASA space flight educational 
opportunities program. It is a NASA program that allows live 
interactive discussions with astronauts on orbit. It is 
conducted with our normal communications system, so it can be 
fairly long, and students ask questions and we answer them. We 
did some of these throughout the United States. Sioux City, 
Iowa, San Francisco, there was a design institute in New York, 
but the one that I liked the best was with NASDA, the Japanese 
Space Agency.
    This involved almost every school across Japan. They had a 
hookup with schools throughout the nation, and it was very 
organized, and when they got the questions and answers, this 
was transmitted to thousands and thousands of students 
throughout Japan. It was an amazing program, and I am sure that 
it had a tremendous impact on their study there.
    Our educational programs do not end from the time that we 
leave the Space Station, either. When we come back, we have an 
opportunity to go out and talk to schools and communities 
throughout the Nation. Both Yuri, Susan and I have spoken to 
many different schools and communities about space and the 
International Space Station, science and the value of science 
and mathematics, and that is a program that will continue for a 
long time, and not only in the future. I had a little contact 
with NASA in the past, and their education programs are 
comprehensive, and they are not just K through 12, or sometimes 
college. We have a lot of different programs.
    My first contact was in 1980, when I was teaching at the 
U.S. Military Academy, and participated in the NASA faculty 
research program. It allowed me to learn about NASA research 
and interactive researchers there to further my education.
    Another product that we have gotten from the Space Station, 
not intended, I think, initially to be an educational product, 
but it has become one, I believe, and that is the IMAX 3-D 
Space Station film. If you have not seen it, you should go see 
it. It really shows what it is like to live and work in space. 
It demonstrates our construction of the Space Station and how 
we lived up there, and I think it is wonderful tool for 
educating the general public on what we are doing in space.
    I think as you will see when you hear from our students 
today, space exploration is a powerful motivator for young 
people, and it is a tremendous tool for teachers. It gets them 
involved in a hands-on way, they learn from it, and I really 
hope that they are inspired by it. I am very proud of the work 
that NASA has done to motivate, inspire, and to educate our 
young people, and I look forward to the future, when we will do 
even more.
    Thank you very much for letting me provide you with my 
insight on my experience on the Space Station.
    [The prepared statement of Colonel Voss follows:]

      Prepared Statement of Colonel James S. Voss, Astronaut, NASA

    I appreciate the opportunity to appear before the Subcommittee 
today to share my thoughts on the power of space flight as a tool for 
inspiring the next generation of explorers. During my five space 
flights, including 167 days on the second expedition to the 
International Space Station, my crewmates Susan Helms, Yury Usachev and 
I had the opportunity to interact with teachers and their students and 
to conduct education activities that I know inspired and motivated 
them.
    The International Space Station provides a permanent orbiting 
classroom that brings education and research out of textbooks and into 
real life. The microgravity environment is the perfect classroom to 
demonstrate basic principles like Newton's Laws of motion. By 
integrating flight activities with inquiry-based learning, NASA offers 
students and educators the opportunity to participate in space missions 
and develop teamwork, communication, and problem solving skills.
    NASA's in-flight education programs use the unique environment of 
space to inspire the next generation of explorers. Using tools of 
modern technology--including the Internet, a digital camera, and 
amateur radio and video downlinks--students are able to study and 
explore Earth from space, learn about life aboard an orbiting 
laboratory, and conduct demonstrations that illustrate scientific and 
mathematic concepts.
    One of the educational payloads utilized on board the Space Station 
is the Earth Knowledge Acquired by Middle School Students (EarthKAM) 
program. EarthKAM is a NASA education program that enables students, 
teachers and the public to learn about Earth from the unique 
perspective of space. The image library and accompanying learning 
guides and activities are available to the public and support classes 
in Earth science, space science, geography, social studies and 
mathematics.
    During Expedition 2, I set up the EarthKAM camera and conducted 
technical checkouts of the hardware. Our crew conducted the first 
operational cycles of EarthKAM onboard the ISS, and during the nine 
days it was operational 488 images were acquired. The EarthKAM imagery 
sites were selected by students and the camera was controlled in a way 
that very closely follows the process we use in conducting other 
scientific research. It is tremendously rewarding to know that these 
images were used by students nationwide to conduct earth and space 
research investigations in their classrooms.
    While in space I also communicated with students using the Amateur 
Radio on the ISS (ARISS). ARISS is a NASA education program that offers 
the opportunity for students to experience the excitement of space 
flight by talking directly with crewmembers of the ISS via amateur 
radio. During the year and a half that we have had humans on board the 
International Space Station crews have had contacts with 65 schools in 
26 states and 10 countries. These contacts involved astronaut crews on 
board answering questions asked by students while over 15,000 of their 
classmates listened. Many of the contacts were broadcast live over the 
Internet and most were covered by local, state and national news media. 
A typical reaction to the impact of one of these educational outreach 
contacts can be seen in a note I received from Mr. Allen White who 
coordinated my contact with Admiral Moorer Middle School in Eufaula, 
Alabama. Mr. White wrote:

        ``Did the contact with the ISS have educational benefits? YES! 
        Would we spend the time and preparation to do it again? YES! 
        There is no way I can adequately describe the excitement this 
        created in our school and community. I think this was the most 
        exciting educational event of the year for these students. 
        Nearly a hundred students submitted questions. All three of the 
        science teachers at AMMS, the principal and school 
        administrators supported this effort in every way possible. 
        Interest in the space studies unit was heightened. The U.S. 
        Space program and the ISS became real to both the students and 
        our community because our kids actually talked directly to an 
        astronaut in space! The space program was no longer just 
        something they had read about. This event was the talk of the 
        town for weeks!''

    We also had the opportunity to conduct NASA Spaceflight Education 
Opportunities. This is a NASA education program that facilitates live, 
interactive programs between crewmembers onboard the ISS and students 
and educators in classrooms around the world. Expedition 2 participated 
in four live, interactive programs during their mission. These included 
the following:

        Sioux City, Iowa--May 15, 200l. Topic: Research on the ISS.

        San Francisco Exploratorium--May 23, 2001. Topic: Living in 
        space and radiation.

        NASDA (Japanese Space Agency)--June 6, 2001. Topic: Life 
        onboard the ISS.

        Cooper-Hewitt Design Institute, New York, NY--June 26, 2001. 
        Topic: Technology and design.

    In addition to the live programs, Expedition 2 downlinked an 
opening message for the Space Day 2001 activities.
    NASA's Education Program is comprehensive and reaches beyond the K-
12 education community to university students, faculty members and the 
public as well. In 1980, while teaching at the U.S. Military Academy, I 
had the opportunity to be a participant in the NASA Faculty Fellowship 
Program. Through this program I was able to gain research experience 
and participate in valuable collaborations with NASA researchers. An 
educational product of the ISS Program is the IMAX 3D Space Station 
film which was made in large part by astronauts on board the Space 
Station and has helped educate the general public on the assembly of 
the ISS and life in space. This Fall during the World Space Congress 
NASA will be leading the way in distance learning with an educational 
downlink from the Expedition 5 crew.
    Space exploration is a powerful motivator for young people and is a 
tremendous tool for teachers. I am extremely proud of the work that 
NASA has done to maximize our country's investment in the Space Shuttle 
and International Space Station by using them as education platforms. 
Students, teachers, faculty, and the public will continue to be 
inspired, motivated, and taught using these national space assets.

    Senator Wyden. Very good. That is very helpful. Let us 
now--and I think we can arrange this with the Committee and 
with Mr. O'Keefe--let us have the testimony of Dr. Peggy 
Whitson via videotape.
    Mr. O'Keefe. Peggy has just arrived.

        STATEMENT OF DR. PEGGY WHITSON, ASTRONAUT, NASA

    Dr. Whitson. Distinguished Members of the Committee, I am 
Peggy Whitson, and I am talking to you from the International 
Space Station. I wanted to take a few minutes of your time 
today and talk to you about how important education is for NASA 
and for our future. NASA has sponsored a number of projects 
here on the International Space Station for young people, 
including things like Earthcam, where we have mounted cameras 
here that were controlled by students on the ground, looking at 
targeted sites on the Earth. Other projects, like our ham radio 
projects, we have talked to children all over the world.
    But today I want to spend a little bit of time talking to 
you about what we will be working with here during Expedition 
5. This payload is the International Toys in Space project, and 
we are trained to use the allure of space flight to attract 
young people to the field of science, mathematics, and 
engineering, and we use different toys to try and demonstrate 
that.
    For instance, we have this jumping bear on the ground. It 
works quite well, but here in space, after it reaches a certain 
point, it no longer works, so this could be an engineering 
project where young people try and develop or modify this toy 
so it would actually work in space, and it gives young people 
an idea of all the problems involved and the engineering 
involved in space flight.
    Another toy that we have demonstrates a lot of the 
mathematics that are kind of key in space flight. We have three 
balls on one string, and the center one actually slides along 
the string, and I will demonstrate to you here in just a moment 
how we can use this for a demonstration where students can 
study inertia and motion centrifugal force, as well as some 
more complex math motions, and I will demonstrate this.
    Then finally, all of you have probably played with marbles, 
but we have an extra added dimension here in space, being 
three-dimensional, and we also have marbles of very different 
masses which we can use to demonstrate some very basic 
principles of mass and energy and motion, and the biggest 
challenge for me, of course, is not to lose all my marbles.
    [Laughter.]
    Dr. Whitson. So we will take snapshots of these videos and 
incorporate them with videos on the ground to demonstrate to 
young people different aspects of science, mathematics, and 
technology. The International Toys in Space project includes 
the NASA educational division, the Houston Museum of Nature and 
Science, the Wright Space Institute, Miami University of Ohio, 
and the Houston Independent School District, and another 
project involving education that I wanted to talk to you about 
is one that I was involved with personally. This is a NASA 
program called the resident research associate program.
    After finishing my graduate school, I was able to come to 
the Johnson Space Center using one of these fellowships, and 
not only did I have the pleasure of working of as an associate, 
but later I was an advisor for various associates that came to 
NASA, and I think it provides a great experience for young 
people as well as the people at NASA for providing new ideas 
and new blood in the system, so I think it is a great program 
we should expand on even more.
    So thank you very much for your time, and again I would 
like to say that NASA obviously has had a large role in my 
educational goal, otherwise I would not be here, 240 miles 
above the Earth, in my own laboratory.
    Thank you.
    Senator Wyden. Well, thank you very much, Administrator 
O'Keefe, for arranging that. We try to find ways to communicate 
an important message, and nothing could say it better than Dr. 
Whitson just did.
    Mr. O'Keefe. We had hoped to be able to do that live. 
Unfortunately, the satellite link was used to coordinate the 
landing of Endeavor, so we thought that would be a higher 
calling.
    Senator Wyden. I think so, and you tell Dr. Whitson we will 
give her another chance.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    Senator Wyden. We will give her another opportunity. Thank 
you very much for arranging that.
    Let us go next to Ms. Peggy Steffen, Albert Einstein 
Distinguished Educator from Ottumwa High School, Iowa.

   STATEMENT OF PEGGY STEFFEN, ALBERT EINSTEIN DISTINGUISHED 
                 EDUCATOR, OTTUMWA HIGH SCHOOL

    Ms. Steffen. Thank you. Science is all about questions. 
They may result from the simple curiosity of a preschooler, or 
the investigation of fundamental questions about the origins of 
the universe. Teachers of science like myself are challenged to 
lead the Nation's children in discovering answers to questions. 
NASA has been a partner with me as a science teacher in meeting 
that challenge during 25 years of learning adventures with 
teenagers in Iowa. We were inspired by the excitement of the 
Mars Pathfinder mission as images came from millions of miles 
away to our computers. My students became explorers themselves 
as they were challenged to investigate questions like, how can 
we find out how far an object in space is from Earth? Can we 
observe a planet surface that is covered in clouds, and how do 
ocean currents affect the climate and weather in Iowa?
    The students quickly learned that recent discoveries in 
science are not found in the textbooks but with information 
made available through publications, activities, and from 
organizations like NASA. However, NASA is unique in that 
science is public. The flow of information about new 
discoveries and images is easily accessed by citizens, 
educators, and students. I have appreciated the availability of 
NASA resources through the electronic Spacelink library, 
through workshops, and through NASA Educator Resource Centers.
    In 1985, I was excited about the possibility of a teacher 
being sent on the Space Shuttle to teach from Space. I was one 
of the thousands of hopefuls, but the program's message to my 
students, their parents, and myself was that education was 
important, and NASA was willing to provide resources and time 
on the shuttle to connect real science to all students, even 
those in small-town Iowa.
    I am excited about the recent plans for the Educator 
Mission Specialist program. It will provide many springboards 
for education to be involved in the science of NASA. In 2000, I 
was chosen as one of 12 Albert Einstein Distinguished Educators 
from around the Nation, and was given the choice of several 
fellowship positions in Washington, D.C.
    I chose NASA because of the enthusiasm and inspiration it 
generates in educators and students, and because I wanted to 
work in the organization that inspired me to choose science as 
a career. I have not regretted for one minute my decision to 
spend my Einstein Fellowship working at NASA. NASA's education 
program is an evolving one, dedicated to providing effective, 
meaningful opportunities for the Nation's educational 
communities. I have appreciated the willingness of the NASA 
family to reach out to practitioners in the classroom for 
advice and assistance in response to the needs of translating 
science and technology.
    The NASA-Iowa Connection project was designed and 
implemented to bring rich learning experiences to Iowa's 
educational communities through the State's fiber-optic 
distance learning system. It has demonstrated how NASA's 
resources can provide extended professional development and 
student learning based on a theme, in this case, the 
International Space Station Student sessions brought 
opportunities for interaction with NASA researchers and 
university faculty. The staff of the NASA Food Technology 
Commercial Space Center provided special sessions with 
Astronaut Clayton Anderson. Participating schools received 
special kits of ``astronaut lunches'' for tasting and 
experimentation during the session, which was broadcast around 
the State.
    Students were able to answer probing inquiries by the 
presenters, and were able to ask questions of the expert panel. 
One capstone event for students during the project was the Next 
Generation Space Station Design challenge. Middle school 
students worked in teams to develop a design for the next step 
in Space Station habitats. They produced models, a presentation 
and diagrams which were shared with other students through the 
distance network and with the Distance Learning Outpost at NASA 
Johnson Space Center. Two of the models are displayed in front 
of you, along with an ``astronaut lunch.'' The final event in 
the project is a downlink from the International Space Station 
crew to the Science Center of Iowa next week, in which we will 
hear from Iowan Peggy Whitson.
    What is the impact of NASA's involvement in education?
    Senator Wyden. You Iowans get around.
    [Laughter.]
    Ms. Steffen. We do. I would like to offer a few quotes from 
people who were involved in the NASA-Iowa Connection project, 
the first from the teachers: ``This project was valuable in 
many ways. It showed them what they were capable of, gave them 
a chance to explore/research independently, and do teamwork on 
an entirely different level.'' ``This project introduced many 
of them to the idea of looking into engineering fields.''
    From a parent: ``Thank you for providing this opportunity 
for my two sons. Their interest in aerospace was greatly 
increased.''
    And from our most important audience, the students in 
grades 3 through 8: This project ``gives me another option for 
a future job. This will help me work harder.'' ``It put an 
interest in science on me. It made me wonder what I want to 
be.''
    Thank you for the opportunity to share the perspective of a 
teacher. NASA's ability to inspire teachers and their students 
is powerful. I would like to end with a quote from student 
Blake Meyer's thank you note to Astronaut Clayton Anderson: 
``The time you talked to us taught me more than any book ever 
will. I will be watching for you and your crew to one day go up 
into space. Shoot for the stars.''
    Senator Wyden. Well said. Well said, and we thank you, Ms. 
Steffen. Very good. Let us go now to Ms. Marci Whittaker from 
Oregon State. We have a special interest in having folks here 
from Oregon State, and we know the good work going on campus, 
and you just proceed, Ms. Whittaker.

   STATEMENT OF MARCI WHITTAKER, JUNIOR NUCLEAR ENGINEERING 
                STUDENT, OREGON STATE UNIVERSITY

    Ms. Whittaker. Thank you, Mr. Chairman. My name is Marci 
Whittaker, and I am a junior nuclear engineering student at 
Oregon State University in Corvallis, Oregon. I grew up in a 
small farming and lumber community in Eastern Oregon, where 
education is not the top priority. It is difficult to interest 
parents and children in the pursuit of knowledge when mills are 
closing and crops are failing. However, I had an early 
advantage. Both of my parents graduated from college in 
scientific fields and were eager to encourage my education. 
They were receptive and supportive even when I told them I 
wanted to be the first professional basketball-playing 
astronaut in the CIA.
    [Laughter.]
    Ms. Whittaker. By my freshman year at Oregon State, I was 
earnestly working towards the more general rocket scientist 
career. I discovered that a small group of OSU undergraduate 
students were developing a project for NASA's reduced gravity 
student flight opportunities program. I was shocked. I did not 
think that I would be able to participate in NASA programs 
until graduate school at the least. Participating in the 
reduced gravity student flight opportunities program has been 
at minimum a life-altering experience. This program allows 
students to design, build, and test experiments in the zero 
gravity environment of the KC-135 airplane.
    Teams from community colleges, two Ivy League universities 
converge on Ellington Field in the spring and summer to 
experience NASA at its finest. I have now made three trips to 
Houston to take part in the student flight program, and each 
trip was awe-inspiring. Every person we encountered stayed 
until all of our questions were answered, whether it was the 
program coordinator, the test directors, interns we met in the 
hallways, or an astronaut we mobbed at the Johnson Space 
Center. The program test director stayed late on weekends so 
teams could finish their projects, and offered helpful points 
along the way.
    Since the teams, each carrying anywhere from 4 to 12 
members, worked in a hangar directly on the flight line, risks 
are numerous. The test directors are patiently accommodating to 
around 12 teams at a time, plus they are extremely safety 
conscious. Every concession is made to ensure that teams have a 
spectacular time at NASA. Family members are admitted, 
interteam activities are arranged, and spontaneous tours given.
    As a side note, a great quote. I got the opportunity to 
take two freshmen on the team this last year, and they came 
back telling everybody they shook a space man's hand.
    The true genius of the student flight program is that this 
inspiration and enthusiasm is passed from NASA to the program 
participants and from the teams to high school and elementary 
students. A requirement of the program is the outreach. Each 
team must speak about their experience to various groups upon 
returning home. For the OSU team, this has included speaking at 
high schools and elementary schools, and participating in 
summer programs like the OSU-developed summer experience in 
science and engineering for youth.
    SESEY allows the small groups of students to work closely 
with the students' mentor and a professor to investigate 
cutting edge science and technology. All of the projects 
selected have a strong outreach plan and good, solid science, 
as one director phrased it. Good, solid science has ranged from 
testing components of a zero gravity waste filtration system to 
virtual reality programs to help program participants adjust to 
the dizzying effects of weightlessness. Teams focus on 
biological and mechanical aspects of space technology. An 
experiment on maintaining fitness and bone density is flown 
next to a machine that analyzes soil samples in space.
    As with most good things, this program has a hefty price 
tag. An hour on the KC-135 runs at about $7,000 for private 
researchers. NASA provides this program to us for free. 
However, teams must pay for their own equipment and travel 
arrangements. Team budgets can range anywhere from $9,000 to 
$50,000, depending on equipment sensitivity and purpose. These 
funds are donated by universities, private companies, families, 
and the students themselves.
    The national space grant college and fellowship program, 
another NASA program, has been very helpful in defraying the 
team's cost. Oregon's space grant has managed to put aside some 
funding for the OSU team every year. Space grant scholarships 
are also awarded each year. Each award is based on merit, need, 
and an essay on a selected space science topic. Since my 
nuclear engineering department is very supportive of nuclear 
space propulsion, the scholarships are always a hot topic. The 
essays also point to casual space enthusiasts, and to a more 
focused direction. Last year's essay asked applicants to 
develop an appropriate task for a pico, or very small 
satellite, I understand for the university's Cubesat project.
    I consider myself very lucky to have both received a space 
grant scholarship and to have participated in the reduced 
gravity student flight opportunities program. I am now able to 
return to my home town and give students inspiration I once 
lacked. I am hoping that I will be able to make my fourth trip 
to Ellington Field this next year, and continue spreading 
NASA's inspiration.
    Thank you.
    [The prepared statement of Ms. Whittaker follows:]

   Prepared Statement of Marci Whittaker, Junior Nuclear Engineering 
                    Student, Oregon State University

    My name is Marci Whittaker and I am a junior nuclear engineering 
student at Oregon State University in Corvallis, Oregon. I am here to 
speak about the necessity of an inspirational education.
    I grew up in a small town in Eastern Oregon where education was not 
the top priority. In a small farming and lumber community, it is 
difficult to interest parents and children in the pursuit of knowledge 
when mills are closing and crops are failing.
    However, I had an early advantage. Both of my parents graduated 
from college in scientific fields and were eager to encourage me in my 
education. They were receptive and supportive, even when I told them I 
wanted to be the first astronaut to be a judge and a professional 
basketball player.
    By my freshman year at Oregon State, I was earnestly working 
towards a more general rocket scientist career. I discovered that a 
small group of OSU undergraduate students were putting together a 
project for NASA's Reduced Gravity Student Flight Opportunities 
Program. I was shocked. I didn't think that I would be able to 
participate in NASA programs until graduate school at least.
    Participating in the Reduced Gravity Student Flight Opportunities 
Program has been a life changing experience. The program allows 
students to design and build experiments and test them in the zero 
gravity environment of the KC-135. Teams from community colleges to Ivy 
League universities converge on Ellington Field in Houston in the 
spring and summer to experience NASA at its finest.
    I have now made three trips to Houston to take part in the RGSFO 
program, and each trip has been awe-inspiring. I could not hope to work 
for a better company. Every person I talked to was as excited to be 
there as the first day they worked there. Everyone involved was 
extremely conscientious about making sure that all of our questions 
were answered, whether it was about the program coordinator, the staff, 
interns we met in the hallways, or an astronaut we mobbed at the JSC 
campus. Any engineering or science buff would have a great time at 
NASA, but I haven't seen a group of students act this excited since the 
Christmas gift exchange in kindergarten.
    The true genius of the RGSFO program is that this inspiration is 
passed from NASA to us, to high school and elementary students. A 
requirement of the program is that each team must speak about their 
experience to various groups upon returning home. For the OSU team, 
this has included speaking at high schools and elementary schools and 
putting together summer programs. I am now able to return to my very 
small high school and give the students the inspiration that I was 
lacking. The students who spoke of NASA in whispers now send me emails 
about how they are going to college so they can participate in this 
program, too.
    As a nuclear engineering student at OSU, I am always hearing about 
nuclear space propulsion. My department chair, and avid supporter of 
space nuclear reactors, is also the director of the Oregon Space Grant 
Program. The National Space Grant College and Fellowship Program has 
also been a big force. Each year their scholarships get the whole 
department in a space uproar. Last year's scholarship essay asked the 
applicant to develop a task for a pico-satellite. For a solid month I 
heard nothing else but space talk.
    I have been extremely lucky to be able to receive a Space Grant 
scholarship and participate in the Reduced Gravity Student Flight 
Opportunities Program. I am hoping that my fourth year in college will 
be no less amazing.

    Senator Wyden. Well said, Ms. Whittaker, and I admire the 
aspirations you had. All I wanted to do was play in the 
National Basketball Association. You pushed considerably more 
than I did. Congratulations on all your achievements to date. I 
know you are going to have a lot more.
    Let us here now from Brendan Dwyer and Christopher Broere. 
You guys have had such a big buildup already that we are really 
excited. What we normally do when people come to the Senate and 
talk about their concerns and their issues is have the parents 
introduce their children, and I think what I would like you to 
do, Brendan, and you to do, Christopher, is introduce your 
folks to me and to the Senate. Can you do that for me? How 
about have the parents standing up, and then you introduce 
them.

 STATEMENT OF CHRISTOPHER BROERE AND BRENDAN DWYER, STUDENTS, 
                      OCEAN AVENUE SCHOOL

    Mr. Broere. This is my dad, Harry Broere.
    Mr. Dwyer. And this is my dad, Sean Dwyer, and this is my 
mom, Maureen Dwyer.
    Senator Wyden. Thank you all very much for coming. Let us 
hear first from you, Brendan, then we will hear from 
Christopher (just pull that microphone close to you, because it 
is sort of hard to hear).
    Mr. Dwyer. Well, we sort of have a presentation.
    Senator Wyden. Well, let's sort of do it that way.
    [Laughter.]
    Mr. Dwyer. Who wants to start?
    Mr. Broere. I will.
    Senator Wyden. Just pull the microphone close to you, 
Christopher. Go ahead.
    Mr. Broere. Imagine if one day NASA asked you to build a 
design and launch structure for the most advanced space 
vehicle. The launch structure has to be light and very strong, 
and has to be able to support a structure many times its 
weight. It has to be able to launch the structure not just 
once, but over and over again with little damage. To make 
things even tougher, you have to make minimum specifications in 
height and width, and all you can make it out of is wood, 
cardboard, and glue.
    Now imagine if NASA asked you to do this without any 
experience in mechanical designing or engineering. This exactly 
the challenge Brendan and I set out to meet in the NASA NSIT 
aerospace technology engineering challenge.
    Mr. Dwyer. NASA asked students across the country in fifth 
to eighth grades to design and build their own reusable launch 
structure from scratch using the same ideas that are used in 
the X vehicle and the Space Shuttle programs. The rules seemed 
simple. The structure had to be over 5 centimeters in height, 
and large enough to hold a 35-millimeter film canister within 
the body of the structure. The structure had to be as light as 
possible. The payload was a 1 or 2 liters bottle filled with 
water.
    The students had to build the launch vehicle using a 20-
pound sand bag as a lever, propel it up a guide rail. The 
launch was a success if the payload reached an orbit of 1 meter 
off the ground. The launch structure had to be able to reach 
orbit without any damage at least three times. To build the 
structure, students were allowed to use only certain materials, 
cardboard, balsa wood, craft sticks, quarter-inch dowels, and a 
hot glue gun.
    When we first started out, we did not think the objectives 
were that hard. We thought all you had to do was make a simple 
structure of wood and cardboard and use it to launch it without 
breaking. A piece of cake. We were dead wrong. It turned out 
the challenge was really a challenge. We learned this the hard 
way when our first test structure, T-1, exploded into a million 
pieces on its second launch, and after we gave each other high 
fives, but many models later we designed and built the 
structure Speedy 6. It launched payload almost seven times its 
weight over and over, and was only 1.4 percent of the total 
launch weight.
    We ended up learning more than we thought we could from 
this project.
    Mr. Broere. Our first lesson was teamwork. We researched 
our structure and talked about ideas for designs. We studied 
many rocket designs for these launch structures. We sketched 
these structures, and talked about why they were built in 
certain ways. We also researched technology books that came 
from an engineering library. We tried to understand how a 
launch structure worked. We learned there are important parts 
to every structure. They were vertical struts, braces, a 
payload platform, and joints. Each part works like a team to 
transfer the energy during launch. Each part had to be the 
right size to work with the whole to distribute the stress. A 
good structure spread the force evenly during the compression 
of the launch.
    After our research, we set out to move the launch and the 
payload rocket. The launcher was made of pine wood boards, and 
the launch lever was mounted on a board with a T-hinge. Under 
the board we had a launch pad with a metal guide rod. We 
mounted a ruler to the metal guide rod to measure the altitude 
of our test. If the rocket cleared 1 meter and made it to 
orbit, the launch was a success.
    Once we made the launcher, we needed the thrust to launch 
the payload rocket. Energy for our launches came from a sand 
bag dropped on one end of the lever. The challenge rules 
required the bag to be at least a 20-pound bag. We wanted to do 
a test with a lot of energy, so we used a 30-pound bag. The 
only problem with the 30-pound bag was, we kept dropping it on 
our foot, so we came up with the idea of a pull-center pulley 
to help with the bag. We were building the structures.
    Mr. Dwyer. When we finished the launch, we designed and 
built our first series of models. We began testing the 
launches. The structures were our first hard lesson. All the 
structures failed, but we studied the damage in the broken 
pieces and we learned a lot about how stress and energy flow 
through a structure at launch.
    The braces were very important to the structure. The first 
models used horizontal and vertical braces and struts. We began 
to see that diagonal X braces might work better to help support 
the structure and reduce stress. By distributing energy, we 
also discovered we would have to begin to make the structures 
heavier and to make them stronger.
    Mr. Broere. We went back to the drawing board. We were not 
going to give up. When we began designing new models, Brendan 
and I began to have a dispute on what was the best way to 
handle the problem of strength. I thought cardboard was the key 
to strength. Brendan thought cardboard would increase the 
weight too much and we should use balsa wood and form the 
struts and braces, so our team began making two different 
series of models. One series, the BD series, tried wood. The 
other series, the CB series, my series, tried cardboard. By the 
end, we had narrowed our ideas down to two different styles, 
the model CB-2 and DB-4.
    This is CB-2. It was the heaviest model, weighing 50.3 
grams. The cardboard on all sides gave it most of its weight. 
It took some of the brace ideas from our earlier structures, 
and had cardboard on all sides to give it strength.
    Mr. Dwyer. This is what is left of the BD-4.
    [Laughter.]
    Mr. Dwyer. The BD-4 used octagon-shaped base and it had a 
lot of wooden joints. This was the largest structure at 9 
centimeters. We wanted to see if the size made a difference 
when it launched. We got our idea from one of Robert Goddard's 
rockets.
    Mr. Broere. We tested the new models again. This time we 
had a success, but at a price. The cardboard structure, CB-2, 
launched to orbit three times with a little damage, but it was 
just too heavy, and there was another problem. This was a real 
rocket with solid walls. It would have too much heat from the 
engine, so our team decided to take the best ideas from each 
model and combine them into one structure. The result was BD-6.
    Mr. Dwyer. This is BD-6. It has doubly enforced X braces 
and it took the best idea from each model, combined them into 
one structure. It had lighter joints. BD-6 was a complete 
success. It weighed only 29.3 grams, but it could launch a 
rocket that weighed 2,041 grams beyond an altitude of 1 meter 
without any damage. It could sustain the energy of a 13 
kilogram weight dropped over and over from 1 meter. The best 
part was, the structure met 1.4 percent of the total launch 
rate.
    Mr. Broere. We discovered the final formula for our 
structure was a simple box, strong vertical struts, plus wider 
joints, plus cross-bracing in an X pattern on all four sides.
    Mr. Dwyer. Plus a payload platform supported by cross 
braces, plus the structure height of 6 centimeters with the 
lightweight wood materials doubly enforced, plus symmetrical 
measurement of all parts, plus careful gluing and, most of all, 
teamwork.
    Mr. Broere. Now we are going to demonstrate our launch.
    [The launch was accomplished.]
    [Applause.]
    Senator Wyden. Would you guys like to add anything else?
    Mr. Dwyer. No.
    Senator Wyden. As far as I am concerned, we ought to put 
you in charge of the Federal Government.
    [Laughter.]
    Senator Wyden. I am not sure that anybody in Washington, 
D.C. is ready for a couple of guys like you that really follow 
up, but congratulations on a terrific job. That was really a 
good explanation as well. You talked about some pretty 
complicated stuff, and I was even able to understand some of 
it, so thank you very much for an excellent demonstration.
    Do you guys want to add anything further?
    Mr. Dwyer. No.
    Mr. O'Keefe. Now you see why we want to recruit them, Mr. 
Chairman.
    Senator Wyden. I can tell your parents you are going to be 
signed to a multiyear contract before you walk out the door.
    Let us do this. For a few minutes we are going to do this a 
little differently than we do most Senate hearings. I think, as 
I look at all of you at the table, the enthusiasm is just 
coming out of every pore, and it is palpable, your excitement 
and your interest, and I think what I want to do is spend a 
little bit of time just thinking through how we might build on 
some of these issues. I will have some questions for each of 
you, and this is not going to be some kind of typical 
congressional hearing where you get grilled brutally, and you 
are supposed to sweat constantly and the like. We are going to 
just think a little bit out loud in terms of some ideas about 
how we proceed.
    Mr. O'Keefe. Mr. Chairman, I am disappointed you are going 
to spare them the full experience.
    [Laughter.]
    Senator Wyden. They will have it when they take over, but 
let us start with you, Administrator O'Keefe. First, from the 
standpoint of the goal that I have set out, the tripling of the 
number of women, how important would something like that be?
    Mr. O'Keefe. I think critically important. As a matter of 
fact, we are going to start with Marci, because the 
opportunity, I think, to motivate folks to consider these 
important disciplines fields for science, technology, 
engineering is the future of where we are going, and 
unfortunately it is not of sufficient numbers that we would see 
in order to really populate the aerospace community at large, 
or NASA very specifically.
    I read a frightening commentary the other day--well, I 
should not call it frightening, but it certainly is awakening. 
There are more majors today at colleges and universities at 
sports and exercise science than there are in electrical 
engineering. As a consequence, in the future the opportunities 
to really focus on the kinds of areas that are necessary make 
that an imperative, and I think in terms of the very specific 
minority and gender distribution they are into, that means we 
really need to not only double our efforts, but triple them in 
so many different areas, and that is an awful lot of what our 
education efforts are about here, to inspire the next 
generation of all potential explorers, not just a few.
    Senator Wyden. Studies indicate girls begin to lose 
interest in the sciences around preadolescence and junior high 
school. Are there some steps NASA can take to try to retain 
those girls' interests at that critical age?
    Mr. O'Keefe. Well, again, I think much of what we are 
attempting to do is target not only the college level interest 
and the current cohort of college students, because at that 
stage most have made up some decision about what kind of 
general area they are going to go into.
    Again, regrettably you do not see many liberal arts majors 
switching to engineering degrees midway through college. If 
there is not an inspiration or motivation on the part of folks 
in elementary through high school to make those decisions, with 
Christopher, certainly, and Brendan to make the decision to be 
involved in this is typically not going to be a decision they 
will make past high school, so as a consequence it will be 
critical, I think, to focus our efforts at grade school as 
elementary as well as secondary high school level activities as 
soon as we can for the purpose of inspiring the next generation 
behind.
    Senator Wyden. Now, a subpart that question is that 
teachers' attitudes toward girls in the sciences are 
particularly critical to whether a girl decides to pursue 
studies in math and science. Are there steps that the agency 
can take to change the teachers' behaviors and attitudes 
towards girls in the sciences?
    Mr. O'Keefe. Well, I have a feeling that Barbara Morgan 
will be most influential in this activity as she becomes the 
first educator mission specialist, she has an extraordinary 
communications skill as well as just being a marvelous teacher, 
and she I think will motivate and inspire those in the teaching 
profession to change attitudes in that direction, because she 
is trained as a physicist. Her degree was from Stanford 
University, and so as a consequence she is very much focused in 
that direction and can speak quite authoritatively on the 
motivation or lack thereof that she got, and encouragement she 
got from so many as she moved through her studies in pursuit of 
math and science objectives, then to have become a grade school 
teacher, and a very successful one, in a way that now sees the 
applications that I think she can demonstrate that regularly, 
and we seek through initiatives like that to continue to 
emphasize by example, by demonstrating what we do, walking the 
walk in this regard of what we are capable of doing.
    Peggy Whitson, another marvelous example, who will be the 
first designated science officer aboard the, International 
Space Station, a doctorate in biochemistry, and as a 
consequence is focused very directly towards those very 
important disciplines that will yield, in addition to the 
experiments she talked about here, the science objectives of 
what International Space Station will be capable of.
    The more we demonstrate this, I think the more it becomes 
an example, a demonstration of our capabilities in this area.
    Senator Wyden. Now, you mentioned in your testimony NASA 
has a number of education programs that have been focused on 
women. There is the Goddard Space Flight Center sisters 
program, NASA summer or high school apprentice program, women 
in science and engineering program, and then you also have a 
partnership with the National Center for Women in Science, 
Technology, Engineering and Math.
    Now, you said a big part of what you wanted to do was to 
look at these programs that the agency runs and try to 
reorganize them, come up with some ideas of how to best promote 
them, and decide if some will be changed or go by the boards. 
Can you give us some sense of how you are going to do that, and 
whether there are certain programs that you think are already 
producing especially significant results?
    Mr. O'Keefe. Yes, sir. Thank you. The focus is exactly as 
you described it, is to inventory what it is we are doing 
across the agency, which again is not an attempt to try and 
control those activities, but more to coordinate them in a way 
that we can leverage that for greatest gain and to, in the 
process of doing so, examine where the best practices and the 
best examples of outreach that we can attain and seek to 
transmit and transfer that kind of knowledge around the agency 
for greatest gain.
    Our other effort, too, is to make sure we coordinate our 
challenges and our approaches to this through the Department of 
Education, and rather than try and go out and duplicate the 
kind of outreach efforts they have, as a matter of 
institutional practice today, and so as a result we will 
leverage again a lot of the programs we are focused on very 
specifically in ways that I think will be much more efficient 
as well as more targeted in our outreach efforts.
    I do not think it is going to take more money. I think it 
is going to take more focus, concentration, and attention to 
how we do this and gain greater advantage, I think, by that 
approach. I would say a stellar example of what really has 
worked and has been a real effective effort is the 
establishment of research centers and a range of historically 
black colleges and universities which have motivated a larger, 
attention towards engineering, math and science, and technology 
discipline pursuits, the means and the actual application of 
those efforts toward very real projects and efforts that we are 
engaged in, and so they are conducting important research, a 
place like Prairie View, for example, that is beginning the 
efforts to look at the effects of radiation on astronauts for 
long-duration of stays.
    As a result, they are really conducting some efforts there, 
but a major problem that we need to focus on in that area is to 
assure that we have an opportunity to recruit those who have 
been the participants in research center grants, scholarships, 
and fellowships through those important programs, so even that 
needs more attention, but it has been a marvelous experience, 
and one that, having met with so many representatives of those 
research centers, it has leveraged those resources in ways that 
we never could have imagined in accomplishing those tasks. We 
just need to do even more of it.
    Senator Wyden. What would you think about the idea of 
naming a point person to be in charge of the women's programs 
as a way to try to give some focus in this area, since upwards 
of 90 percent of the people in these key positions are men?
    Mr. O'Keefe. Well, we are headed towards, I think, the 
establishment of a senior leadership and management position 
within NASA headquarters for education objectives. There will 
be an organizational element that will look across the entire 
agency's functions and all center activities, again, a means to 
coordinate this. In that effort, I am certain there will be 
attention and focus towards I think again the minority outreach 
efforts and recruiting objectives therein, as well as women and 
gender-focused kind of approaches to aim at recruiting as an 
ultimate effort and engage therein.
    Let me mull that a bit, because the notion of really 
putting a specific emphasis on a specific area or group for 
that purpose may be the way to go. It may be an effort to focus 
very directly in areas that will have benefits in that regard, 
but there certainly will be a more coordinated, focused 
attention at the senior level of the NASA headquarters and 
across the entire agency in terms of how we functionally 
conduct education efforts across the board.
    Senator Wyden. I appreciate that response and your 
willingness to look at it, because I would very much like to 
work with you and Administrator O'Keefe to set some concrete 
goals, particularly with the employment of women. My sense is 
that you all are doing a lot of good work; I just could not be 
more pleased about the commitment that you are making, and my 
sense is that there are a lot of programs out there. There is a 
lot of activity, but I think we really need to see if Congress 
and the agency can jointly establish some specific goals that 
we can then measure.
    For example, I think the visits are terrific, and I only 
want to encourage them, but I think the measure, for example, 
has got to be how many people we actually get with degrees in 
their hands and then moving on to careers. If we could work 
with you to try to find a way to set out some concrete goals in 
that area that would be very helpful. I want you to know how 
strongly I feel about this as chair of this Subcommittee that 
focuses on science and technology issues.
    I have had a number of meetings with women around the 
country, and I am just struck--I mean, I really walk away sort 
of slack-jawed at the passion that they bring to this issue. 
There is tremendous concern that starting at a very early age, 
at that third and fourth grade environment, young women who 
have shown real aptitude and real skills somehow get waylaid. 
Teachers do not, in effect, give them that extra push, and a 
variety of things go wrong. I think that what we want to do is 
come up with a set of goals and a set of policies that help to 
turn this around; I can see how committed you are to the field, 
and I think now we want to work on some of the nuts and bolts 
of how to do it.
    Mr. O'Keefe. Yes, sir, I would be delighted to work with 
you on that, absolutely.
    Senator Wyden. I appreciate your passion for this effort. 
Let me get some of the other witnesses involved, and then we 
will go back to Mr. O'Keefe for some other questions.
    For you, Astronaut Voss, my question would be, with so much 
activity on the International Space Station--particularly now 
when you are building the Station--how do you make time to 
conduct experiments and programs with students? You have got to 
be juggling a lot of hats out there.
    Colonel Voss. We do stay awfully busy up there, that is for 
sure, but you know, it is like everything else we do, most of 
the things we do are scheduled for us. They tell us what to do 
and when to do it, and there is a grand plan in place to get 
all of the many, many requirements completed during an 
expedition, and our planners on the ground factor in all of the 
tasks we have to do, whether there are assembly space walks, 
robotics, interior work--there are so many different things. 
Education is one of those many pieces of this puzzle that they 
fit together and put into our schedules.
    Every week we have some sort of contact of one sort or 
another, and it was part of our normal plan. It was part of our 
normal work. It was part of our mission while we were up there, 
and that is how we completed a lot of it. We also had some free 
time, not much, but some, and we were willing to devote that 
time as well to these ham radio contacts with schools and other 
activities because we share that passion that our Administrator 
has for education, and believe, deeply believe that is part of 
our role, that we should be trying to inspire that new 
generation.
    Senator Wyden. That really leads me to the only other 
question I had for you. You know, when you are an astronaut, 
there are a tremendous number of pulls on your time. You could 
be involved in a whole host of issues. Why did you decide to 
make education the priority that you wanted to focus on, when 
there were a bunch of other things that you could emphasize?
    Colonel Voss. I believe in a lot of those sayings that 
people have that we're inspiring the next generation, that we 
are touching the future, as Christa McAuliffe said, things like 
that. I really do believe that is what happens when we teach 
our children, whether it is a teacher, a professor, an adult, a 
parent, and I really do believe that is the way we guarantee 
the future of our Nation and the world, so I guess I just 
believe that, and it is worth the effort and the time that we 
put into it. It is important.
    Senator Wyden. All right. Ms. Steffen, you obviously have 
put a lot of work in curriculum development, and you are in the 
classroom, and nothing is more helpful than to have that sort 
of real world sense of what is happening in a classroom. Tell 
us a little bit about how you have been able to integrate the 
various different disciplines of NASA science into the programs 
that you are a part of.
    Ms. Steffen. As a science teacher, I have taught almost all 
the sciences, though I have emphasized physics, astronomy and 
geology in the last 10 years, and my classroom strategies have 
been inquiry-based learning, and challenge-based learning, so 
NASA resources, since they do cover all disciplines, have been 
very easy to incorporate into the research challenges that I 
give the students and the expectations that I have for them to 
go out and find good recent science discoveries and how science 
is applied. They have come back with some wonderful things.
    The projects that I have brought today are not from my 
students. They are from other students in middle school 
classrooms who were involved in project, the NASA-Iowa 
Connection, but my students, as older students, have done all 
kinds of things on a little different level using NASA 
resources, and a lot of it online.
    Senator Wyden. What do you think we can do with teachers to 
better address this issue of young girls, particularly in third 
and fourth grade, who seem to get waylaid from these careers? I 
ask you again. You are on the front lines, and you are part of 
the converted. You obviously have this passion, and it looks 
like it is in your chromosomes to me. What is your sense about 
how we could deal with what sure seems like a real problem out 
there--that is getting those teachers in those critical grades, 
like third and fourth grade, to do more to generate 
opportunities for women?
    Ms. Steffen. A couple of possibilities. First of all, we do 
know a lot more, based on research, about how different 
children learn, both male and female, at different ages, and we 
need to do a better job of putting that research into our 
curriculum development areas, and that is Nation-wide, not just 
NASA.
    But also, we need to put an increased emphasis at the 
elementary ages. It has been my experience as an educator of 
teachers, in addition to being a teacher in the classroom, that 
elementary teachers are not very comfortable with most science 
content, therefore they do not spend a lot of time emphasizing 
that content, since they do not feel comfortable to answer 
student questions, so it would be, I think, a great in-road 
into making girls feel more comfortable in science if their 
teachers spent class time on that also. We need to increase 
opportunities for professional development at the elementary 
level with teachers, helping them to learn the content so that 
they go back and work with the students I think this would make 
a big difference to girls in the classroom.
    Senator Wyden. The same question, Marci, what is your sense 
of how we get more young women involved? I gather that your 
situation was one where you got it from your parents. If you 
had not gotten it from your parents, what would have happened? 
You just would not have gotten it at all?
    Ms. Whittaker. Well, let me tell you an example. I moved on 
to a slightly larger high school, and my senior year they 
encouraged most of the advanced students to take either 
advanced biology or physics.
    I had a good friend who is very, very smart, a female, and 
she would not take the physics, not because she did not think 
she could handle the materials. She knew she could handle it. 
She just did not feel comfortable being in an environment where 
she was a minority, and I think that is the key to this, is to 
encourage not only girls that they can go ahead and do science 
and engineering-related fields, but to encourage boys at a 
young age also that these girls can handle the material, so 
that it is not an oddity to have a girl in your science and 
engineering class, or your physics class, or whatever. It is 
just a perfectly normal environment.
    Senator Wyden. Tell me about what it was like earlier on, 
though, because you just mentioned senior year and an advanced 
placement class. That was one set of issues that we have got to 
deal with and this question of being alone is obviously key, 
but what was it like earlier in third and fourth grade? You 
said you grew up in rural Oregon.
    Ms. Whittaker. I think like Peggy said the teacher is 
uncomfortable with the material and so not a lot of time is 
spent on it, and I think most importantly when we do stuff, 
when they had science, the science period of the day, we need 
to do a lot of hands-on, get people excited, get kids into 
projects, and relate it not only to science but to other 
aspects of life, do practical projects, and I think that would 
help and bring in more guest speakers, more people, adults or 
role models for these kids, because it is hard when you are 
little to see why this is important, and why you need to be 
learning this.
    Senator Wyden. That would be one, Mr. O'Keefe, that I had 
thought about as well--to have what amounts to science 
ambassadors. I am just speaking in sort of a colloquial, 
conversational way, but if, for example, there could be people 
with expertise who were interested in and committed to this 
field who could just get out and do some speaking for the 
agency to youngsters in third or fourth grade, I think that 
would make a real difference.
    We are going to have to look at this in terms of a 
continuum, but it seems to particularly start at third and 
fourth grade with a different set of problems.
    Anything else, Marci, you think you ought to be talking 
about as we work with the agency to try to get more young women 
in the field?
    Ms. Whittaker. I think a very important thing that I have 
learned through this is that NASA is this big, mythological 
place that you go to if you are extremely, extremely lucky, and 
more an ambassador that goes out and contacts people and just 
more programs where people can come back and do outreach and 
talk to elementary school students, or whatever, and share 
their knowledge and their experience, most importantly to get 
them excited about it would be the most helpful.
    Senator Wyden. Well said. Well, Brendan and Chris, just a 
couple of questions for you. Certainly your rocket launch was 
impressive, and I can tell you two are excited about space. 
Tell me, what was it particularly that got you interested?
    Did you watch shuttle launches on television? What was it 
that got you particularly interested in these fields. Pull the 
microphone to you, and if you want you can even put into this 
answer--I know, Brendan, you are interested in becoming a 
robotic engineer, and Chris, you are interested in computer 
science, so just tell us a little bit about what got you 
interested in all of this.
    Mr. Dwyer. Well, I like building things. In this project 
you build a lot of things out of wood, and you construct 
different things, and I build robots and stuff like that, and 
so that is why I like this. That is why I was interested in 
this project.
    Mr. Broere. I just like the computer field because I like 
building things, too, but I like math and stuff, and I am sort 
of good in math, and I like the computer, along the computer 
lines, and I really did not know what this project was about at 
first, and like, I am good at physics, and that is sort of 
computering, and so I sort of liked the whole project.
    Senator Wyden. Well, you guys have been listening for an 
hour and a half, or 2 hours, what would you like to see the 
people who run the space program do at your school?
    Mr. Dwyer. Well, I would like them to come in and have a 
link to the Hubble Spacecraft and the Space Station, like a 
radio.
    Mr. Broere. I would sort of just like somebody from NASA to 
come and maybe speak to my school.
    Senator Wyden. Good. That is like Marci, I think. That has 
certainly got a lot of students involved, and it is also 
something that is fairly straightforward and a little bit 
easier to put together, so we are going to talk to Mr. O'Keefe 
about that speaker's program, and it is a good idea.
    Just a couple of other questions, and then we can wrap up. 
Mr. O'Keefe, I think I was interested in your comments about 
the minority university research program. That is something 
that this Committee has had a longstanding interest in on a 
bipartisan basis, and I know that you are going to work with 
the various stakeholders in the minority community on it. Tell 
us what your plans are for addressing these issues which are so 
important to this country as well.
    Mr. O'Keefe. Yes, sir. First and foremost, if I could just 
comment real briefly on your last discussion, we do about 2,000 
school visits a year with astronauts and engineers from around 
the agency, and you can bet that Ocean Avenue School will be on 
the list in short order, no doubt about that. In terms of more 
specific outreach efforts, we have had a continuing effort, I 
think, to look at fellowships, scholarships, and grants at 
historically black colleges and universities, as well as 
Hispanic institutions, and it has been on the rise for the last 
several years.
    In the aggregate, for all the efforts we do on minority 
outreach programs, it aggregates on the order of about $125 
million a year, of which 83, I guess, is at HBCU's, and 
specifically focused towards research centers and a few other 
areas. The dollars aside, though, it is more a question, I 
think, of two areas that we need to be really concentrating on 
very specifically for these programs.
    First is to view this as a very specific part of our human 
capital objectives, strategic management thereof, to borrow a 
direct term right off the President's management agenda, as a 
means to look at how we are going to deal with the challenge of 
really what is right now, in the most charitable way of saying 
it, a very mature workforce, as you describe.
    A third of the agency will be eligible to retire in the 
next 3 to 5 years, and so we have got to look proactively at 
every effort we are engaged in on how that then results in 
recruiting opportunities, and with the efforts that we are 
engaged in very directly at HBCU's as well as Hispanic 
institutions, there are opportunities there we have not tapped 
to the fullest.
    The second element I think is that by creating the programs 
as appropriately so as an equal opportunity focus and 
objective, there nonetheless needs to be a very clear linkage 
with the education efforts overall so as to establish as part 
of the overall objectives, because in the end, regardless of 
where folks are who have been beneficiaries and direct 
participants in various NASA fellowships, grants, and 
scholarship programs, if, in turn, we are contributing to a 
larger national knowledge base, regardless of where they pursue 
professional opportunities thereafter, that is a benefit, I 
think, to all of us as Americans, and so in that regard, to 
look at this as an education effort, as part of our longer term 
commitment and obligation to our American objectives in this 
regard is reward enough.
    Senator Wyden. I think that is something that Brendan, 
Chris, and Marci can take away from this as well. What Mr. 
O'Keefe is basically saying is that he is going to need a lot 
of trained people like you. This is an agency that is going to 
need you very, very badly in the years ahead, and I hope that 
will be a bit of an inspiration for you three and other 
students as well.
    I also wanted to ask Mr. O'Keefe to talk a little bit more 
about the teacher in space program, what you hope to accomplish 
there, and how it relates to science and math education.
    Mr. O'Keefe. Well, the teacher in space program was, I 
think as Jim Voss, and certainly as Peggy described, as one of 
the applicants several years go to that effort in 1985, was a 
specific objective as a means to recruit teachers who would 
have the opportunity to experience space flight and then have 
an opportunity to take that one experience and translate it 
back in the classrooms.
    The educator mission specialist effort is different in the 
sense that we are in pursuit of teachers, educators, who have 
an interest in pursuing the full astronaut training effort to 
be full participants in all range of activities that we are 
engaged in on the shuttle, as well as on the International 
Space Station, and the activities overall that are primarily 
dominant in our Earth-bound condition in their training efforts 
to be fully qualified participants in the Astronaut Corps, and 
who, by the way, view their task from the unique vantage point 
of that of an educator, of a teacher who look at issues, look 
at capacity, look at capabilities as a way to translate that to 
other educators and, indeed, to children as well, for larger 
education objectives.
    That is a unique perspective that we have not seen, and we 
have seen a wide range of disciplines that represent those in 
the Astronaut Corps. Of the 120 active members of the Astronaut 
Corps today, roughly 40 percent are military. The other 60 
percent are civilians from a wide range of backgrounds as 
engineers, scientists, physicians, marine research experts, you 
name it.
    There is a wide range of disciplines and backgrounds they 
all bring to this, and as a consequence, view what they do from 
that unique vantage point of their perspective and discipline 
of what they do as they participate in what is necessary to be 
an astronaut, and participate in every single mission objective 
for the year to year-and-a-half that each of them train for 
each of those missions leading up to the activity.
    Our opportunity with Barbara Morgan and those who follow 
after our national recruiting objectives have been to always 
have the opportunity of utilizing our capacity in a way to see 
how it translates to a classroom to inspire that next 
generation of explorers.
    Senator Wyden. What would you think of the idea of a 
student in space program?
    [Applause.]
    Senator Wyden. And I brought this up having a feeling that 
might be the reaction. I did not want to see you trampled to 
death with applications on your way out of this hearing room, 
but I think it is worth exploring, and I would very much like 
to explore this with you.
    Obviously, there would be a variety of ways to do it; for 
example, pull together a group of leading students from around 
the country and begin discussions with students and teachers 
and NASA officials. I think for purposes of today I would just 
ask, could we begin some discussions and start thinking about 
it?
    Mr. O'Keefe. Well, I hate to say this, Mr. Chairman, but 
Brandon and Christopher already beat you to it. They lobbied me 
pretty hard earlier today about what are we going to do about a 
kid in space. I think at this stage of the game we have to 
remember, we have to always remind ourselves that where we are 
right now in the space exploration effort is really at the very 
beginnings.
    There is a poignant passage I read the other day from David 
McAuliffe's piece on John Adams that described the 
circumstances 200 years ago of the USS CONSTITUTION laying at 
harbor, and unable to get underway because the weather was 
inclement for 9 straight days.
    Now, if 200 years ago that was the most formidable power 
projection asset the world had ever seen, and it sat there 
because of weather conditions, interesting. The Endeavor that 
just landed today was delayed 3 days because of weather 
conditions over Kennedy Space Center. It was delayed 6 days in 
launching because the weather was not exactly optimum for 
launch.
    This is still a very early business. We are in the period 
of initial days of sail. In space exploration, we are aspiring 
to the days of steam equivalency for space exploration, and we 
are not there yet, so as a consequence it takes a wide range of 
extraordinary talented folks of the scientists, the engineers, 
the thousands of them that support every one of those launches, 
and then the folks who agree to take on these challenges as 
part of expedition crews for International Space Station as 
well as Space Shuttle orbiter crews that are trained in a wide 
range of disciplines, backgrounds, who are all participants.
    This is not an opportunity yet for tourism or for expansion 
of those activities in ways that is beyond the scope of their 
constant participation in efforts that need to go on, so my 
aspiration I think is to position ourselves so that we can at 
some point say, this becomes an accessible means for every 
American who chooses to do so to consider this, but until then 
we are counting on and relying on Jim Voss and his 
extraordinary colleagues to help us blaze that trail in this 
early day of sail, of trying to accomplish space exploration 
objectives
    Senator Wyden. Well, I understand your concern. I just 
think that what is needed here is to be bold, and to set goals, 
and I think you would find that this would really trigger a 
tremendous amount of enthusiasm among students. I think that 
the students I have talked to about this want to meet the 
rigorous goals and the tough standards of NASA.
    They are not interested in being tourists, and paying to 
just go up for the sake of going up and looking around. I think 
they understand what NASA's mission is all about, and I think 
that what we would find in terms of students is that students 
would be reluctant to do it unless they could do it right, 
unless they could do it in line with the rigorous standards 
that NASA has a right to expect.
    So I would only hope--and I feel a little badly about just 
hitting you cold with the idea. Your commitment in this area is 
extraordinary. I am very appreciative of it, and I would just 
like to continue some discussions with you and really wrap it 
up this way.
    It seems to me that NASA's work in the math and science 
area is particularly critical right now. We have the serious 
problems like a dire shortage of women in these critical 
fields. We badly need the talent as it relates to our economy 
as a whole. We need this talent to win the war against 
terrorism, where technology is so vital to getting the jump on 
the terrorists and having people that know how to use it, and 
then, of course, we need to meet the tremendous needs you are 
going to have to deal with the workforce that is going to be 
leaving soon, so I think this is a particularly important bit 
of work for our country.
    I am very pleased that you have staked this out, 
Administrator O'Keefe, as something that will be important to 
you. I think that this is something on our watch that we want 
to see real progress made. I think that means being bold, I 
think it means setting goals, and in particular it means 
building on the inspiration that you have all shown this 
afternoon. We have a tradition in this Subcommittee of giving 
the witnesses the last word. You are not required to take it, 
but we would like to give you the last word. Is there anything 
any of you would like to add further, Brendan, Chris, Marci?
    Ms. Whittaker. I would just like to thank you, Mr. 
Chairman, and NASA as a whole for the opportunity to reach so 
many people through this program. Thank you.
    Senator Wyden. Very good. Mr. Voss, Ms. Steffen, Mr. 
O'Keefe?
    Ms. Steffen. I just want to thank you for the opportunity 
to share some of my experiences today, and I am excited about 
some of the new opportunities that are coming on the horizon 
with NASA, and looking forward to being involved as a teacher.
    Colonel Voss. I just want you to know there are lots of 
young people who work at NASA who are very enthusiastic about 
their work and their jobs, whether it is being an astronaut, or 
a physician, or an engineer, or a scientist. We have lots of 
people tremendously enthused about their work there. We do not 
all have to be astronauts.
    Senator Wyden. Well, bumping up against you it would be 
physiologically impossible not to be excited.
    [Laughter.]
    Senator Wyden. Mr. O'Keefe, anything else?
    Mr. O'Keefe. Thank you, Mr. Chairman. I just want to thank 
you and express my gratitude to you for your willingness to 
conduct such a hearing on a very, very important topic, and one 
that I think you can see, just from the witnesses here today, 
and my thanks to all of them for their willingness to 
participate in this as well.
    I think the benefits that can be derived if we concentrate 
and coordinate our efforts very carefully in thinking about how 
we do this, and one of the great parts is, having spent a 
little time yesterday, Jim and I did, with Tom Cruise and the 
IMAX folks who produced the film that he mentioned earlier as 
really a must-see down at the Air & Space Museum and IMAX 
theaters the country. It is the closest thing he has ever seen 
that actually provides an understanding of the experience he 
had, but their interest and their enthusiasm for continuing 
these efforts to include the ideas of maybe looking at a second 
effort that will focus on the educator mission specialist 
missions hereafter, which is really quite an effort to inspire 
the next generation of explorers.
    Thank you, Mr. Chairman, for your willingness to do this.
    Senator Wyden. We will be working closely with you in the 
days ahead. The Subcommittee is adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee adjourned.]

                                  <all>

</pre></body></html>
